<html>
<title> - THE CURRENT STATUS OF PUERTO RICO'S ELECTRIC GRID AND PROPOSALS FOR THE FUTURE OPERATION OF THE GRID</title>
<body><pre>[Senate Hearing 115-515]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-515

                  THE CURRENT STATUS OF PUERTO RICO'S
                    ELECTRIC GRID AND PROPOSALS FOR
                    THE FUTURE OPERATION OF THE GRID

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION
                               __________

                              MAY 8, 2018
                               __________
                               

                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                 
                 
                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
              
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
30-282                    WASHINGTON : 2020               
                           
              
              
              COMMITTEE ON ENERGY AND NATURAL RESOURCES
               
                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                     Isaac Edwards, Senior Counsel
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                David Gillers, Democratic Senior Counsel
                            
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Heinrich, Hon. Martin, a U.S. Senator from New Mexico............     2

                               WITNESSES

Walker, Hon. Bruce J., Assistant Secretary, Office of Electricity 
  Delivery and Energy Reliability, U.S. Department of Energy.....     6
Alexander, Jr., Charles R., Director, Contingency Operations and 
  Homeland Security, U.S. Army Corps of Engineers................    14
Sobrino Vega, Christian, President of the Government Development 
  Bank, and Chairman of the Board of the Puerto Rico Fiscal 
  Agency and Financial Advisory Authority, Government of Puerto 
  Rico...........................................................    20
Higgins, Walter M., Chief Executive Officer, Puerto Rico Electric 
  Power Authority................................................    25
Roman Morales, Jose, Acting Chairman, Puerto Rico Energy 
  Commission.....................................................    32
Masses, Rodrigo, President, Puerto Rico Manufacturers Association    64

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Alexander, Jr., Charles R.:
    Opening Statement............................................    14
    Written Testimony............................................    16
    Responses to Questions for the Record........................   114
Cantwell, Hon. Maria:
    Statement for the Record.....................................     4
Financial Oversight and Management Board for Puerto Rico:
    Letter for the Record........................................   166
Heinrich, Hon. Martin:
    Opening Statement............................................     2
Higgins, Walter M.:
    Opening Statement............................................    25
    Written Testimony............................................    27
    Responses to Questions for the Record........................   131
Masses, Rodrigo:
    Opening Statement............................................    64
    Written Testimony............................................    66
    Responses to Questions for the Record........................   159
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Roman Morales, Jose:
    Opening Statement............................................    32
    Written Testimony............................................    34
    Responses to Questions for the Record........................   145
Sobrino Vega, Christian:
    Opening Statement............................................    20
    Written Testimony............................................    22
    Responses to Questions for the Record........................   116
Toledo, Ana L.:
    Comments for the Record......................................   169
Walker, Hon. Bruce J.:
    Opening Statement............................................     6
    Written Testimony............................................     9
    Responses to Questions for the Record........................   103


 
           
THE CURRENT STATUS OF PUERTO RICO'S ELECTRIC GRID AND PROPOSALS FOR THE 
                      FUTURE OPERATION OF THE GRID

                              ----------                              


                          TUESDAY, MAY 8, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:10 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here today to learn more about the work that has 
been completed, the work that is still underway as we seek to 
restore electricity to the people of Puerto Rico, and really to 
discuss this morning, moving forward. So much remains to be 
accomplished.
    We will also take a close look at proposals to reform the 
island's energy sector, such as the Governor's proposals with 
regard to the Puerto Rico Electric Power Authority, PREPA, and 
the Puerto Rico Energy Commission.
    At a hearing we held last November on hurricane recovery 
efforts, I suggested at that time that there are essentially 
three different tenets, basic tenets, for the restoration and 
the reconstruction of Puerto Rico's electric grid. I first 
suggested that we needed to make the grid more resilient to 
future weather events. I think everybody agrees it makes sense. 
Number two, in the case of damage from a future storm, bring 
the timeframe for repairing the grid on par with the rest of 
the United States. Again, absolutely reasonable. And the final 
tenet is to bring down the overall cost of electricity compared 
to pre-storm prices. Moving forward, I think that that is 
something, again, that we all agree must happen.
    Unfortunately, I am not sure that any of those tenets have 
been fully or adequately addressed. Although I would note that 
some parts of the grid infrastructure are probably more 
resilient today but perhaps more resilient by default as they 
have been replaced with newer materials. Still, as last month's 
island-wide power outage demonstrated, the grid remains fragile 
and unstable.
    Before we can get to those basic tenets, however, there 
remains a very primary question that I think needs to be 
answered, and that is, going forward, who is in charge of the 
grid? Who is providing the vision for the future of the grid 
and who should outside parties be in contact with to help 
fulfill that vision? Is it the Governor's office, which is 
promoting legislation to sell off some of PREPA's assets and 
contract with a third party to operate the transmission and 
distribution lines? Is it the Financial Oversight and 
Management Board, which recently certified a new fiscal plan 
for PREPA that includes a process for privatization? Is it 
PREPA, which has a relatively new Board of Directors, a new 
CEO, but could be completely upended by these other plans? Or 
is it the PREC, which claims responsibility for setting the 
overall policy direction for the grid yet could be dissolved 
under the Governor's reorganization plan? Then how do the 
Department of Energy and the Army Corps of Engineers fit into 
this hierarchy? And, of course, what about the creditors? There 
are many, many questions here.
    Today's hearing is also an opportunity for officials to 
provide some clarity to questions that many in Puerto Rico are 
asking. They are asking, why are we still seeing island-wide 
blackouts? They are asking where all the federal dollars have 
gone, how have they been directed. Then, as we enter a new 
hurricane season, they are asking whether or not the grid is 
more stable and more resilient. They are asking what efforts 
are being made to incorporate alternative energy sources so 
that the island is not dependent on the global price of oil. 
Then they are also asking what the status of the PREPA 
privatization proposal is. So there are a lot of questions to 
be answered.
    I would further add a concern about the consolidation of 
the regulatory agencies in Puerto Rico, particularly the PREC. 
With Puerto Rico's fiscal issues, attracting capital investment 
is a struggle, and without a stable regulatory environment, 
bringing in investors to upgrade the electric grid will be even 
tougher.
    I am hopeful that our witnesses this morning can help us 
sort through some of these issues and provide a little more 
clarity, not only to the Committee, but to the people of Puerto 
Rico and the many, many who are closely following the situation 
on the ground.
    I thank you all for being here as we focus on this very 
important issue.
    I will turn to Senator Heinrich for an opening statement. 
He is helping Senator Cantwell out this morning, and we 
appreciate you taking the chair here.

              STATEMENT OF HON. MARTIN HEINRICH, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Heinrich. Happy to do it.
    Thank you, Madam Chair, for scheduling this timely hearing 
to examine the current status of Puerto Rico's grid restoration 
and proposals for the future operation of its grid. Senator 
Cantwell asked me to fill in for her at the start, and she will 
be here later.
    Before proceeding, I would like to take a moment to 
recognize the service of nine Puerto Rican National Guardsmen. 
They were tragically killed last Wednesday when their C-130 
crashed shortly after taking off in Georgia. Our thoughts and 
prayers are with their families. This is an important reminder 
of the sacrifices that Puerto Rican American citizens make for 
this nation each and every day.
    Senator Cantwell asked me to acknowledge Senators Nelson 
and Rubio for leading a letter of a group of our colleagues, 
requesting this hearing. Senator Nelson has been such a 
forceful advocate for Puerto Rico, and I understand he was on 
the island just last Friday.
    I thank our distinguished witnesses for sharing their 
expertise and perspective with us today.
    Hurricane Maria struck Puerto Rico on September 20, 2017, 
causing the largest power outage in our nation's history and 
the second largest outage the world has ever known. We are 
still not done with the restoration process, over seven months 
after the storm.
    Today, 98 percent of power customers in Puerto Rico have 
power, but much more work remains. To put it in perspective, 
tens of thousands of Americans there are still in the dark, and 
the threat to their health and well-being is real.
    As we approach hurricane season in the coming weeks, we 
need to ensure that we have learned the lessons of Maria so 
that we do not repeat those same mistakes.
    Congress would like to see federal aid go to help Puerto 
Rico incorporate microgrids, renewables, distributed generation 
and dramatically increased resilience into the future grid. I 
think we can also agree that a starting point is a robust, 
independent and transparent regulatory structure, something 
that Puerto Rico has struggled with over the years.
    If we do not get this right, we will be in exactly the same 
place after the next hurricane.
    Madam Chair, I understand Senator Cantwell will join us 
shortly, but I would ask that her statement for the record be 
included in the record.
    The Chairman. It will absolutely be included.
    Senator Heinrich. Thank you.
    [The prepared statement of Senator Cantwell follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Heinrich. I am looking forward to our testimony 
this morning.
    The Chairman. Thank you, Senator Heinrich.
    With that, let us go to our panel. Again, I thank you all 
for joining us here this morning and for your contributions.
    The panel this morning will be led off by Bruce Walker, who 
is the Assistant Secretary at the Office of Electricity 
Delivery and Energy Reliability at U.S. DOE. It is good to have 
you back before the Committee.
    We are also joined by Charles Alexander, Jr., who is the 
Director for the Contingency Operations and Homeland Security 
at the U.S. Army Corps of Engineers (USACE). We thank you for 
your work.
    Mr. Christian Sobrino Vega is the President of the 
Government Development Bank and Chairman of the Board of the 
Fiscal Agency and Financial Advisory Authority for the 
Government of Puerto Rico. We welcome you.
    Mr. Walter Higgins is also known to this Committee. He has 
come before us before as the CEO for the Puerto Rico Electric 
Power Authority. We welcome you.
    Mr. Jose Roman Morales is the Comisionado Asociado-
Presidente Interino. You can tell mi Espanol is way malo.
    [Laughter.]
    He is with the Commission on Energy of Puerto Rico. Mr. 
Morales, welcome.
    And Mr. Rodrigo Masses is the President of Puerto Rico 
Manufacturers Association.
    We welcome each of you to the Committee here this morning.
    Mr. Walker, if you would like to begin? I would ask you to 
try to limit your comments to about five minutes. Your full 
statements will be incorporated as part of the record, and once 
you have completed your opening remarks, we will have an 
opportunity to pose our questions.
    Mr. Walker, welcome, Assistant Secretary.

STATEMENT OF HON. BRUCE J. WALKER, ASSISTANT SECRETARY, OFFICE 
OF ELECTRICITY DELIVERY AND ENERGY RELIABILITY, U.S. DEPARTMENT 
                           OF ENERGY

    Mr. Walker. Chairman Murkowski, Senator Heinrich and 
distinguished Members of the Committee, thank you for the 
opportunity today to discuss the possibilities for the future 
operation of the electric grid in Puerto Rico. Most 
importantly, I want to assure this Committee that DOE is 
committed to providing technical assistance to PREPA as they 
begin their task of rebuilding and redesigning Puerto Rico's 
electric grid.
    During significant events essential services from energy, 
critical infrastructure, including water, telecommunications 
and transportation must be operational to support the safety 
and health of our residents in Puerto Rico. Accordingly, the 
energy infrastructure in Puerto Rico must be designed, built, 
managed and maintained in such a way to ameliorate disruptions 
when they inevitably occur to facilitate rapid recovery.
    This is a continual process of improvement, one that will 
require PREPA to reassess and adopt solutions and technologies 
to address changing needs, and DOE and our national labs will 
remain an active partner to provide technical expertise and 
deploy cutting edge technology to assist PREPA.
    DOE has nearly completed its report on energy resilience 
options and potential solutions for the Puerto Rico grid. This 
report provides recommendations through PREPA and FEMA that 
reflect principles of resilience and are intended to inform 
investments in energy infrastructure.
    The recommendations address near-term and potential long-
term actions that will require further analysis to make optimal 
investment decisions.
    Several long-term recommendations that require additional 
analysis include: Number one, power flow to assess power system 
operations, including generator dynamics and protective relay 
coordination; number two, production cost and capacity 
expansion to inform economic dispatch strategies and long-term 
planning; number three, microgrids, energy storage and system 
segmentation to identify where clusters of generation and load 
provide maximum community benefit; and number four, cross 
sector, critical infrastructure interdependencies. These items 
are being addressed through the development of a sophisticated 
modeling effort incorporating the efforts of five national 
labs. The model will be developed in phases, working with PREPA 
and when complete will serve as a planning tool as well as an 
operational tool.
    As a planning tool, it will provide contingency analysis 
and identify interdependencies of critical infrastructure 
necessary to ensure the health and safety of our residents in 
Puerto Rico. As an operational tool, it will provide next, 
worst case analysis in near real time thereby providing system 
operators situational awareness in order to make sound 
operating decisions to improve day-to-day operation of the 
electric grid. The operational capabilities of the model will 
rely upon near real time data from micro phasor measurement 
units that PREPA and DOE are planning to deploy shortly in key 
locations throughout the island.
    Furthermore, the modeling effort will provide technical 
insight into the resiliency objectives allowing for 
coordination and communication of potential solutions across 
stakeholder groups. This will help enable PREPA to ensure that 
the investments being made achieve the desired improvements 
necessary for a resilient grid.
    Of course, any version of Puerto Rico's future grid 
requires the incorporation of cybersecurity. Uncontrolled 
disruption of our energy infrastructure is not only inherently 
problematic, but it hampers our ability to respond to other 
types of emergency events, like hurricanes.
    Late last year, DOE awarded over $20 million to our 
national laboratories and partners to support critical, early 
stage research and development through strength and protection 
of the nation's electric grid from cyber threat.
    One of these projects, Dark Net, is a collaboration between 
four national labs, three universities and several utilities, 
including the University of Puerto Rico and PREPA. Participants 
are working to define the requirements for a secure energy 
delivery system control network that is independent of the 
public internet, utilizing what is called Dark Fiber. Working 
with PREPA, DOE will seek to deploy this capability into 
PREPA's grid as we work together to strengthen it, capitalizing 
on the significant amount of fiber optics on the island.
    Just three weeks ago, my office issued a $25 million 
funding opportunity announcement through our industry partners 
to develop innovative approaches to advance cyber resilient 
energy delivery systems. Focused on redesigning our existing 
system protection infrastructure for the electric and oil and 
natural gas sectors, the goal is to develop near, real-time 
solutions that will reduce and potentially eliminate the risks 
presented by cyberattacks. This funding opportunity was done 
with an eye toward accelerating R&D efforts with the 
anticipation that we can incorporate these new solutions into 
PREPA's grid and then utilize them across North America.
    In conclusion, the effects of this past hurricane season, 
though a disaster in the short-term, now offers a unique 
opportunity to accelerate cutting edge technology to improve 
Puerto Rico's grid.
    In this case, various forms of technology including 
microgrids, cyber, modeling, distributed energy resources and 
strategic utilization of storage are a few of the capabilities 
we are undertaking to improve the resiliency of the Puerto Rico 
and U.S. Virgin Islands electric sector.
    Thank you and I look forward to your questions.
    [The prepared statement of Mr. Walker follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Assistant Secretary.
    Mr. Alexander, welcome.

 STATEMENT OF CHARLES R. ALEXANDER, JR., DIRECTOR, CONTINGENCY 
 OPERATIONS AND HOMELAND SECURITY, U.S. ARMY CORPS OF ENGINEERS

    Mr. Alexander. Chairman Murkowski and distinguished members 
of the Committee, thank you for the opportunity to provide an 
update on the status of Puerto Rico's electric power grid.
    The Corps conducts emergency response activities under two 
basic authorities, the Stafford Act and Public Law 84-99. In 
response to Hurricanes Irma and Maria, the Corps received 47 
mission assignments at $181 million and 44 Maria-related 
mission assignments at $3.4 billion to execute our traditional 
public works missions. Over $15 million in flood control/
coastal emergency funds were expended under our PL 84-99 
authority.
    I will now limit my remarks solely to the restoration of 
Puerto Rico's grid.
    On 30 September '17 as assigned by FEMA, USACE assumed lead 
for federal efforts to repair the power grid. To date, we have 
received $2.15 billion for that mission alone. Our task was to 
scope, coordinate and execute interim repairs to grid segments 
until a comprehensive restoration of the overall system could 
be implemented.
    The grid consists of 2,400 miles of transmission lines, 
30,000 miles of distribution lines, over 300 substations, 16 
power generation plants. An estimated 80 percent of the grid 
was damaged.
    USACE is part of the Unified Command Group, or UCG, 
comprised of USACE, FEMA, PREPA and the island's restoration 
coordinator. The UCG makes decisions guided by PREPA's 
restoration master plan priorities. These priorities and 
decisions are carried out by PREPA, the Corps and our 
respective contractors.
    The road to repairing the grid consists of four main lines 
of effort: provide temporary emergency power and spot 
generation for critical facilities; ensure adequate generation 
at the power plants; reinstall and repair transmission lines; 
and restore and repair distribution lines, ultimately providing 
power to the customer.
    For temporary emergency power the Corps and its contractors 
installed 2,180 generators. And as of 7 May, 812 remain in 
operation. We anticipate the temporary power mission will be 
extended until 31 July.
    We also installed nine microgrids to provide temporary 
power to communities while grid power was being restored. 
Currently, four are operational at Arecibo, Culebra, Maunabo 
and Vieques.
    To ensure adequate generation at the power plants, the 
Corps installed mega generators at the Palo Seco and Yabucoa 
plants. The Corps will continue to operate and maintain both 
out through mid-July.
    As of 2 May, 79 percent of the transmission line segments, 
69 percent of the sub-transmission line segments and 88 percent 
of the distribution lines have been repaired and energized. As 
of 7 May, PREPA reports that 98.44 percent, or approximately 
1.45 million out of 1.473 million pre-storm customers who are 
able to receive electric power, have their service restored, 
leaving approximately 22,900 customers without power.
    Due to the shortage of materials required to affect 
repairs, FEMA authorized USACE to procure, transport and store 
material, leveraging the purchasing power of the defense 
logistics agency, USACE procured over $229 million in material 
and to date have received over 33 million items. Included in 
these quantities are over 52,000 telephone poles or power 
poles, 5,500 miles of conductor wire.
    Based on FEMA's guidance in the design of the grid, we 
purchased a mix of wood, concrete and galvanized steel poles. 
PREPA's pole standard for distribution of feeder lines prior to 
Maria, was galvanized steel and these poles were used to repair 
the grid to the greatest extent possible dependent upon the 
supplies available at the time. Concrete poles with reinforced 
steel were used to replace existing broken concrete poles.
    All lattice structures used to support transmission lines 
were aluminum with reinforced galvanized steel plates at 
critical joints.
    The USACE mission assignment from FEMA will end effective 
midnight 18 May. Our power restoration contractor will continue 
to work until that date and time. We currently have over 540 
USACE personnel and over 1,000 USACE contractors supporting 
this mission. As the mission assignment ends there will be an 
orderly transfer of responsibilities and material.
    In the days remaining we are committed to maximizing 
contributions toward restoration. The U.S. Army Corps of 
Engineers is proud to have had the opportunity to serve the 
citizens of Puerto Rico.
    This concludes my testimony. I look forward to your 
questions.
    Thank you.
    [The prepared statement of Mr. Alexander follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Alexander.
    Mr. Sobrino Vega.

     STATEMENT OF CHRISTIAN SOBRINO VEGA, PRESIDENT OF THE 
 GOVERNMENT DEVELOPMENT BANK, AND CHAIRMAN OF THE BOARD OF THE 
                   PUERTO RICO FISCAL AGENCY 
  AND FINANCIAL ADVISORY AUTHORITY, GOVERNMENT OF PUERTO RICO

    Mr. Sobrino Vega. Thank you, Committee Chair Murkowski, 
Ranking Member Cantwell and the rest of the distinguished 
members of this Committee. Our statement will focus on 
addressing our strategy for transforming Puerto Rico's energy 
sector and PREPA itself.
    On January 23, Governor Rossello announced a vision for the 
transformation of PREPA and the Island's electric system. The 
envisioned transformation is based on attracting private 
participation to the sector through a concession of the 
transmission and distribution system and private ownership and/
or operation of the generating capacity. The transformation is 
desperately needed.
    While Hurricanes Irma and Maria left the electric system in 
shambles and millions of Puerto Ricans without electricity for 
months, the fragile nature of the Island's electricity 
infrastructure was painfully evident before the September 
devastation.
    The envisioned transformation is intended to bring to 
Puerto Rico a consumer-centered model that provides people with 
options, is sustainable, opened to advanced technology and is 
resilient to future atmospheric events.
    Establishment of an independent regulator and a regulatory 
structure that creates investor and customer confidence is 
critical. The transformation is also intended to be an 
innovative energy model with a commitment to the use of 
renewable and environmentally friendly resources and with the 
goal of achieving more than 30 percent renewable energy 
generation and an aspirational energy cost of approximately 
$0.20 per kilowatt-hour. Energy transformation will provide a 
springboard for the modernization of Puerto Rico, attract new 
business and create jobs.
    The government intends the transformation process to be 
achieved through a proven model--Puerto Rico's Public-Private 
Partnership Act. The P3 Act is well understood by potential 
investors and has been used successfully in recent concessions.
    The legal framework is one that promotes a competitive 
process and assures transparency and fairness while still 
providing the flexibility necessary to achieve the best results 
for Puerto Rico.
    We also expect that the transaction will be approved by the 
Title III Court having jurisdiction over PREPA's insolvency 
proceedings.
    In any structure, federal funding provided for permanent 
system improvements will be necessary to achieve the 
appropriate levels of resiliency and hardening of the system 
consistent with federal law. The structure of the 
transformation will be designed to assure that benefits of 
federal funding flow to the citizens, just as in any natural 
disaster.
    To make the Island's recovery efforts the most transparent, 
effective and efficient in history, the Governor created the 
Central Recovery and Reconstruction Office for Puerto Rico. The 
Recovery Office is responsible for the development and 
implementation of a strategic plan for the reconstruction of 
the island in the short-, medium- and long-term.
    In addition, the Recovery Office is intended to provide 
financial accountability during the transformation process.
    But one thing needs to be very clear. The U.S. citizens of 
Puerto Rico should and must be the principle agents in our 
recovery. Mechanisms are being instituted to show and provide 
confidence that we will be good stewards of the U.S. taxpayer 
funds.
    During the transformation process, we anticipate that a new 
or modified, adequately funded and independent regulator will 
be established by the Puerto Rico legislature. We expect this 
regulator will be comprised of five, highly qualified members 
with staggered six-year terms to mitigate against political 
interference. They may only be removed for just cause 
consistent with Puerto Rico case law developed in that process. 
This regulator will be free from regulatory conflicts and 
structured to support the steps leading to sector 
transformation. We expect this commission to be supported by a 
staff with utility regulation expertise and that the ratepayer 
advocate will exist separately from the regulator to provide an 
independent voice for consumers.
    After the transformation has been completed with a 
successful transaction, the new regulatory structure will 
protect consumers and implement Puerto Rico's energy sector 
policy. It must do that while creating investor confidence and 
attracting private capital.
    Transformation of the energy sector is a vital part of 
Puerto Rico's economic recovery. The Government's economists 
inform us that empirical analysis from Argentina and other 
countries indicates that a one percent increase in investment 
will increase gross domestic product per capita by 0.3 percent, 
implying that consistent investment results in considerable 
increase in GNP levels over time.
    In the recently-certified fiscal plan for PREPA, the 
Oversight Board projected that the energy reforms would 
increase growth by 0.30 percent starting in Fiscal Year 2020. 
As a result, electric sector reform is one of the lynchpins of 
the future of Puerto Rico.
    And with these words, I will submit our testimony and look 
forward to answering your questions.
    [The prepared statement of Mr. Sobrino Vega follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, sir.
    Mr. Higgins, welcome.

STATEMENT OF WALTER M. HIGGINS, CHIEF EXECUTIVE OFFICER, PUERTO 
                 RICO ELECTRIC POWER AUTHORITY

    Mr. Higgins. Thank you, Chair Murkowski, Senator Heinrich. 
Thank you very much for inviting me today.
    I'm now in my sixth week in Puerto Rico. Delighted to be 
there.
    I want to start by thanking the Congress, the Federal 
Government, especially the FEMA, the U.S. DOE, the U.S. Army 
Corps of Engineers and, more recently, the HUD for all the 
things that are going on that are helping Puerto Ricans and 
Puerto Rico's electric utility to become better and to be 
restored.
    There are many, many initiatives that are underway or soon 
to be underway and we look forward to how those will help to 
shape the grid in the future.
    I'd also like to recognize the many public and private 
utilities that came to Puerto Rico after the storm and helped 
us, hundreds and hundreds of people, to get as many people as 
possible restored to power.
    You heard Mr. Alexander say that as of last night 98.44 
percent of the people of Puerto Rico have power available to 
their premises. That's good, but it's not nearly good enough 
because there are still 23,000 people that do not have power 
available to their premise. And we now have about 1,900 field 
workers in the field in Puerto Rico working on resolving that 
problem.
    In addition, we also know that there are some places that 
may be just too hard to get to in any reasonable time. We have 
activities underway currently to find alternate solutions for 
those people. Perhaps they might be microgrids, at a minimum, a 
solar generator, a solar battery and an emergency generator. 
Those kinds of activities are underway, actively, trying to 
figure out who it is we will not be able to get to.
    One thing that we're very sensitive to at this moment is 
the impending hurricane season that starts in less than three 
weeks. We are updating our emergency plans, both island-wide as 
well as inside PREPA. We will hold an emergency drill inside 
PREPA a few weeks from now and then right after that, there 
will be an island-wide emergency drill to make sure that the 
island is ready. And then whatever lessons we learn from that, 
we will hold another drill in June so that we will have 
practiced and practiced and practiced to be ready as possible 
for the next season.
    We're now moving from the planning and execution of 
restoration to what's called recovery, and we have lots and 
lots of things to do thanks to the federal dollars that are 
going to be made available and the idea that we can do better 
than we have done in the past.
    Yesterday we announced the adoption of a national standard, 
the RUS, Rural Utilities Service, standard for all future 
construction in Puerto Rico of the grid. That's an important 
step for us.
    The system was designed to American Society of Civil 
Engineering standards in the past, but this national standard 
will help to facilitate bringing people into the island, 
getting parts on a faster basis, making things familiar to 
everybody, everywhere, making it easier to model, easier to 
restore, easier to adopt new technology because everything we 
do, new from now on and eventually to be rebuilt, will be done 
to an accepted national standard. And the RUS standard is a 
good one.
    Two things really stand out as needing to be fixed, and 
they've been alluded to in one way or another. The grid did not 
withstand the hurricane. It simply didn't withstand it. The 
grid has to be able to do better, and it has to be restorable 
faster.
    Much, if not most, of the grid was designed many, many 
years ago, more than 20 years ago and sadly, it has not been 
maintained the way it needed to be maintained. You don't just 
build a transmission tower and walk away and hope everything is 
fine. You have to go back on a regular basis, make sure that 
the guy wires that hold the towers up, that everything is still 
there and still intact. That needs to be done.
    Second, our generation does not perform as well as 
possible. That's certainly been hurting us recently. Most of 
the generation that's active and capable in Puerto Rico is on 
the south side of the island. Most of the load is on the north 
side of the island. Sadly, the interconnection is what got 
damaged so badly during the hurricane.
    So, anytime, like happened recently, there is an incident 
that effects the grid, the transmission system, the generation 
can quickly get out of balance and a blackout can and 
unfortunately did ensue.
    So we believe that with the right technology, such as 
Secretary Walker talked about, with the right amount of 
maintenance, with a new view of how to build the grid back 
using resilient, renewable, distributed and more efficient 
resources, Puerto Rico's grid can be the grid that the 
customers need.
    Thank you for your attention today. I appreciate being 
invited.
    [The prepared statement of Mr. Higgins follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Higgins.
    Mr. Roman Morales.

 STATEMENT OF JOSE ROMAN MORALES, ACTING CHAIRMAN, PUERTO RICO 
                       ENERGY COMMISSION

    Mr. Roman Morales. Thank you, Chairman Murkowski and 
members of the Committee. Thank you for inviting me to appear 
and for your interest in Puerto Rico's plans to transform its 
grid.
    The Commission has continued to carry out its statutory 
duties. However, the need to restore electric service fast and 
effectively while simultaneously seeking a sustainable 
development, the Commission promulgated draft rules for the 
development of microgrids and is about to publish the final 
version of the same.
    The Commission has also issued new integrated resource 
planning rules and is preparing to guide PREPA's 2018 IRP 
process. The Commonwealth is currently at a decisive moment for 
the development of Puerto Rico's electrical system. The clear 
mandate of I57 to transform it into an efficient, cost-
effective and resilient electric system today becomes more 
important than ever. So it is of utmost importance that these 
decisions are made based on a rigorous analysis of the needs of 
the country within an orderly and objective planning process.
    The Commission ordered PREPA to file the IRP by October 
2018. We have initiated a proceeding to set new rates for 
Fiscal Year 2019 to reflect PREPA's new cost structure. The 
hurricanes have drastically affected PREPA's costs, revenues 
and expectations of future sales, making it unlikely that the 
rates in effect today satisfy the statutory just and reasonable 
standard.
    There are many decision-makers involved in Puerto Rico's 
electric industry. There's PREPA, the FOMB, the Commonwealth 
Legislature, the Governor, the Commission, the Federal 
Government. Among all of these players, there should be just 
one common goal and that is performance for the consumer.
    In order for the term privatization to be useful, it needs 
more clarity, otherwise people will confuse ideologies with 
solutions. There are four distinct concepts that sometimes get 
confused and combined. They are market structure, asset 
ownership, operational responsibility and business ownership. 
So when someone speaks of privatization it is not clear what at 
least they propose to privatize: assets, operational 
responsibility or the business. And it is not clear whether 
they want Puerto Rico's historically monopolistic market to 
remain monopolistic or to convert it into competitive market.
    Instead of privatization, I will better describe it as a 
restructuring. There is more to transformation than just a 
change of ownership. Too often people talk about privatization 
and market structures when what they really want to do is 
escape the costs of the past, address only their own needs and 
leave the resulting problems to others. That approach will not 
solve Puerto Rico's problems.
    To produce the performance Puerto Rico needs, we must 
follow a logical sequence of steps.
    First, describe the mix of products and services that 
customers need. Describe the qualities of those products and 
services in terms of reliability, timeliness, innovation, ease 
of use and resilience.
    Identify the market structures that will provide those 
products and services most cost effectively. Identify the 
companies that can most, that can provide those services cost 
effectively. For those services that will remain under a 
monopoly market structure, develop the necessary regulatory 
procedures for them to proceed on principles.
    And for those products and services to be provided on the 
competitive market structure, create the regulatory principles 
and procedures.
    There are many decision-makers and stakeholders involved in 
Puerto Rico's electric industry, all with ideas, plans and 
proposals to address Puerto Rico's situation. All ideas, all 
paths to performance should be on the table, but all ideas 
should compete in a merit-based, fact-based, transparent 
process.
    We must find the best paths to performance. The integrated 
resource plan approval process will determine the correct mix 
of resources that is most cost effective from centralized to 
decentralized generation from the impact of demand response 
programs and energy efficiency to address the consumption, the 
highest consumption that occurs during the evening, in order to 
allow highest penetration of renewables.
    The Commission is ready and able to assist the 
Commonwealth, the FOMB and Congress to define the new 
regulatory frameworks and market structures for the benefit of 
the people of Puerto Rico.
    Chairman Murkowski and members of the Committee, thank you 
very much for this opportunity to testify and I look forward to 
your questions.
    [The prepared statement of Mr. Roman Morales follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much, sir.
    Mr. Masses.

      STATEMENT OF RODRIGO MASSES, PRESIDENT, PUERTO RICO 
                   MANUFACTURERS ASSOCIATION

    Mr. Masses. Good morning.
    Masses.
    The Chairman. Masses.
    Mr. Masses. Masses.
    Good morning, Madam Chairman, good morning, Senators. Thank 
you for having us here.
    We already submitted our testimony. So if you don't mind, I 
will go, I will summarize our points.
    First of all, you ask about who is in charge? Who is in 
control? The Governor, the Oversight Board, PREPA, Energy 
Commission? Maybe I could answer who should be in control? The 
private sector should be in control.
    The Manufacturers Association, Asociacion de Industriales, 
represent 50 percent of the gross domestic product in Puerto 
Rico. No other sector gets close to seven or eight percent.
    In the past two or three decades, we have been very much 
affected by bad and expensive energy. As a matter of fact, when 
they mention about 98.8 percent of the people of Puerto Rico 
getting back on energy, it should be corrected: getting back on 
bad and expensive energy. Okay?
    It's been subject to blackouts and brownouts costing 
thousands of billions of dollars in terms of product lost and 
time lost and, of course, equipment damages.
    So, we are going to hear and listen to many statements. We 
will receive a lot of data.
    And yes, you're right, we need a stable, robust, regulatory 
framework, legal framework. And yes, it's very important to 
have an independent, regulatory entity. And we need to complete 
the integrated resource plan that was approved by the Energy 
Commission in 2016 in order to have a good map of what to do, 
how to transition this power-activity. Okay?
    We also need, badly, to allow the productive sector to 
generate our own demand, to own the energy we need by allowing 
us to co-generate or generate by using distributive energy.
    And yes, transparency. It doesn't matter if we have a 
beautiful higher peak and we have a beautiful framework, okay? 
If we go through the typical process of RFPs to contract and 
procure, we may get back into a bad and expensive energy at the 
end of all this mechanics.
    So, the process of public auction, subasta publica in 
espanol, which is basically the way that everything is 
presented, the way that the agency announces the opportunities, 
the bid, allows you and me, if we are competing against each 
other, to review and audit our proposals, allow the press to 
follow up in all this. That's the only way that we're going to 
finish with a good product at the end of all this.
    We have been accumulating a lot of intelligence. We have 
the data. We just have to go and execute what we should do.
    And the only way that we are going to be resilient is when 
we own the generation that we're going to use.
    Thank you, Madam Chairman.
    [The prepared statement of Mr. Masses follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, and thank you each for your 
statements. There is a lot to discuss here this morning. Let's 
just get right into it.
    Let me ask first, Mr. Alexander, on the timeline that you 
have here. May 18 is the end date for the Army Corps power 
restoration mission. So, it concludes at that point in time--
98.44 percent of the folks having power there is good, but for 
the 22,900 who are without, I would imagine that they look at 
that date and say, wait, you can't leave us. Is there any 
consideration of an extension of this mission? Any need for it 
to be extended?
    Mr. Alexander. Ma'am, I believe that options, all options, 
were looked at. The Unified Command Group, they deliberated. 
The gentleman to my left actually sits on that body. Our 
authority to be there rests with FEMA and our resources.
    So we will do whatever the mission is, but we, right now, 
have been told at midnight on the 18th we will transition 
orderly with FEMA, our lines that we're working on and the 
material that we have and replenish their inventory as well----
    The Chairman. Let me ask about the orderly transition and 
this may be directed to either you, Mr. Alexander, or to Mr. 
Higgins.
    Big story, not too many weeks ago about the raid, I guess 
it was in January, a couple months ago now, of a PREPA 
warehouse at the Palo Seco power station where the rebuilding 
materials were seized.
    So we have had a lot of discussion. You have mentioned the 
inventory of the material purchases but recognizing that that 
was one of the initial limiting factors in restoring the 
electric grid because you had supplies that were being 
requested in other parts of the country for other hurricanes. 
You had a supply issue at the time. We have obviously worked to 
address that. Then you had a very serious incident there in 
January where the materials are secured.
    So now you are saying you are going to be doing an orderly 
transition? Can you give us that assurance that we really do 
have the materials that are needed and what that will entail 
when you move on and the work remains?
    Mr. Alexander. Ma'am, I'll start off.
    You know, we will conduct an audit, an inventory, of the 
material that will be turned over to PREPA, again to replenish 
stocks that were consumed during the response and then the 
material that they still need to complete the mission.
    The Chairman. How much is outstanding and do you have a 
sense in terms of what is needed to complete?
    Mr. Alexander. On what we need to complete?
    Well, we're down to one point something percent until we 
hit 100 percent. I don't have the actual, you know, count for 
number of poles, transformers, conduit, et cetera.
    The Chairman. I guess where I am going with the question 
is, is whether or not we are still in a situation where we have 
a shortage of the material for the completion. You are 
suggesting no because we have got to about 98 percent.
    Mr. Alexander. Ma'am, material is no longer a limiting 
factor.
    The Chairman. Okay.
    Mr. Alexander. It was initially because there literally, in 
many cases, the material wasn't there. It had been consumed in 
the previous storms. It was coming straight off the 
manufacturing line and then there are some unique 
specifications that apply solely to Puerto Rico.
    The Chairman. Okay.
    Mr. Higgins, did you want to add anything to that?
    Mr. Higgins. Yeah, I think Mr. Alexander has correctly 
stated that material acquisition is no longer a big picture 
problem. All the materials are either on the way or on the 
island or have already been deployed.
    There could occasionally be a localized problem where a 
material isn't available to a crew at a particular time, but 
that's more of a matter of getting it to them, getting it from 
central to regional warehouses and out to a crew.
    The important thing going on now with the Army's mission 
ending is the assumption by PREPA of the logistics operation, 
that the Army has capably and admirably performed over the last 
many months.
    So now we're in the process of PREPA's material acquisition 
people taking over the inventories, all the material that the 
Army has acquired for this, taking over the replenishment of 
future materials, receiving the materials that the Army 
``borrowed'' from PREPA. And in addition, being prepared, fully 
prepared to operate the logistics of material activities in a 
way that supports continuing restoration and the ongoing and 
soon to be undertaken recovery.
    The Chairman. And you are prepared to take that up on the 
18th of May?
    Mr. Higgins. Well, we're still--it's going to be a 
challenge and we're probably going to get some help via the 
FEMA for that, but our people feel they are ready and the FEMA 
is going to give us some additional augmentation as we go 
through that transition.
    The Chairman. I guess recognizing that May 18th is coming 
up next week, we sure want to know that you really are ready 
and that you are not still, kind of, ``working through 
things.'' That is next week.
    So if there are things, if there are steps, if there is 
anything that needs to be done on the outside looking in to 
help facilitate that, we would certainly hope that you would 
make sure that that is known.
    Mr. Higgins. We feel that we are ready to take this task on 
and the help will make sure that we are ready. I don't doubt 
that we'll have some growing pains. This is a massive effort, 
but we are ready to take the task.
    The Chairman. I understand that, sir, and I appreciate it, 
but I also think that for those that have been living with 
great uncertainty about their power generation since these 
hurricanes, these 22,900 that are still without, when they hear 
you say that there is going to be continuing growing pains, 
that must be really tough on them.
    Mr. Higgins. Yeah, I completely agree with your comment, 
Madam Chairman.
    The Chairman. Senator Heinrich.
    Senator Heinrich. I am still trying to--I am having a hard 
time wrapping my head around this.
    Mr. Alexander, if there are over 20,000 Puerto Rican 
American citizens still without power, is your mission really 
accomplished?
    Mr. Alexander. Our mission, as assigned by FEMA, is.
    Senator Heinrich. I don't think that is acceptable. I 
cannot imagine a scenario where 20,000+ Texans or 20,000+ 
Floridians were without power and FEMA would make that 
decision. I think that is reprehensible.
    Mr. Masses, I am going to get to the bottom of something 
you raised that I think is a bit of a game changer here. Puerto 
Ricans pay painfully high retail electric rates, both 
individual citizens and manufacturers. I can't imagine a world 
where you try to make manufacturing work at $0.20 plus per 
kilowatt-hour. A lot of that is because of an antiquated over-
reliance on diesel generation which is incredibly expensive.
    So at a time when we see new generation from wind, from 
solar, from natural gas, all priced in the bulk market at $0.02 
to $0.04, even $0.02 to $0.05 a kilowatt-hour, it seems to me 
that even on the retail price, we ought to be able to build new 
generation cheaper than operating the existing diesel 
generation. Am I missing something here?
    Mr. Masses. By all means, by all means, but let's get back 
into the material cost here.
    Senator Heinrich. Why can't you?
    Mr. Masses. They talked about the inventory is not a 
problem anymore because it's being handled.
    What about in the next three or four months, if we are hit 
again is the inventory there because they fix what was broken 
the last two or three months?
    Senator Heinrich. Right.
    Mr. Masses. But what about if we get hit again? Are we 
going to go through this again? Of course, if we are, if we own 
our generation, we will have the inventory available to fix our 
problems.
    Senator Heinrich. What are the barriers to your members 
being able to own their own generation, their own storage, 
their own behind-the-meter distributed resources that then 
cannot only support your members, but in an emergency 
potentially provide services back to the grid?
    Mr. Masses. Well, not just in an emergency because we could 
design it in order to share our excess with the community and 
other components of these regions.
    So, I mean, we could design all this in a proper way to 
help everybody in Puerto Rico.
    Senator Heinrich. Why can't you do that today?
    Mr. Masses. Well, we have not been able to do that in the 
past because typically PREPA protect their invoice. Remember 
that we are the biggest invoice of the company. So, they may be 
concerned about this kind of trend.
    And yes, in terms of technologies, solar, wind and there's 
many others that are available and that could make things very 
nice.
    Senator Heinrich. Mr. Higgins, what is the PREPA legal 
stance with regard to behind-the-meter resources with regard to 
solar and storage for individual retail customers as well as 
with regard to large commercial customers being able to have 
behind-the-meter generation?
    Mr. Higgins. Senator Heinrich, I think the question needs 
to be answered in, kind of, two ways.
    Number one, Puerto Rico needs to change the way the grid is 
supplied by power today. It is not being adequately and 
properly supplied with the current generation mix. That 
generation is troubled by a maintenance issue. It's troubled by 
being reliant on oil which is both environmentally and cost-
wise a difficult commodity. And in addition, there's not enough 
generation where it needs to be and, in some cases, there's too 
much where we don't need it.
    So, the grid needs to be rebuilt. It needs to be rebuilt, 
not just the wires, but the generation needs to be rebuilt and 
as we change it out, then I agree with Mr. Masses in that 
regard, we should be relying on customers to generate 
themselves. We should be allowing customers who want to self-
generate to do so.
    We need to interconnect with them safely such that the grid 
is still safe, the workers can still work without danger and 
the customer is able to supply what they want to and PREPA, in 
the new world, will supply what PREPA is capable of supplying 
for people that don't want to do it themselves or when it's 
more economic.
    Senator Heinrich. Do you have a current net metering policy 
either for retail or for large commercial users?
    Mr. Higgins. As I understand the retail policy--I've not 
spent a lot of time looking into that in my short time there--a 
customer, in order to be a retail solar customer and still be 
connected to the grid, must have a system that supplies their 
own needs and have storage. Therefore, they aren't going to 
suddenly rely on the grid when their system doesn't work. That, 
I believe, is our current way of dealing with behind-the-meter 
solar.
    Senator Heinrich. Thank you.
    The Chairman. Thank you, Senator Heinrich.
    Senator Cassidy.
    Senator Cassidy. I agree with what the Chair said. There 
are a lot of things to talk about here. But let me, kind of, go 
to you, Mr. Walker, and I think also you, Mr. Sobrino Vega.
    You mentioned the desire for resilience and for 30 percent 
renewables. Now when we took our tour of Puerto Rico, there 
were lots of smashed windmills, and on our tour of the U.S. 
Virgin Islands, a lot of smashed solar panels. I am guessing 
that if you are going to be resilient there has to be at least 
some redundancy in terms of yes, we have renewables, but there 
has to be an amount of backup generation as either baseload 
and/or reserve generation. Is that correct?
    Mr. Walker. Senator, when I spoke earlier, I spoke about 
the integration of renewables as part of the strategy. I did 
not indicate any percentage like an RPS.
    Senator Cassidy. That may be you, sir.
    Mr. Walker. But that being said, the question you're asking 
is a good one because I, too, saw the havoc that was wrought 
during Hurricane Maria and the impact it had on renewables.
    To that end, part of the modeling effort we are undertaking 
is the utilization of our expertise with weather data, 
particularly wind, to identify where there are opportunities, 
strategically, to place things like solar and wind that we saw 
damaged in Puerto Rico, utilizing the topography of the island 
to facilitate its ability to withstand hurricanes.
    So----
    Senator Cassidy. Presumably though, it will always be more 
vulnerable than other assets.
    And sir, you were going to comment?
    Mr. Sobrino Vega. Yes.
    Resiliency requires resiliency in generation capacity on 
the island. That's a given. But the introduction of renewable 
energy sources is not, the way it's structured in our renewable 
portfolio standard that was legislated back in 2010 and amended 
subsequently, is to provide a cheaper source of energy that can 
allow the energy sector and the cost of producing energy on the 
island is lower if we only depend and if we only depended on 
diesel and petroleum products.
    Senator Cassidy. I accept that.
    So there would be redundancy, if you will, for resiliency, 
but nonetheless, net, you would have a lower price. I think----
    Mr. Sobrino Vega. I think that is our goal, sir. Yes.
    Senator Cassidy. So let me ask. The other thing we learned, 
Mr. Higgins put it very nicely, the generation is not co-
located with your consumption. I recall that coal-powered power 
plant on one side of the island, but it is the opposite side in 
San Juan.
    That seems as if you are going to address that. You are 
actually going to put some of this redundant, necessary for 
resiliency capacity on the northern side of the, or I should 
say, on the opposite side of the island from the coal-fired 
plant. I presume that plan is in the works?
    Mr. Higgins. Yes, sir.
    One of the important initiatives that we are undertaking is 
to look at, possibly and hopefully, repowering some of the 
northern generation, both bringing the maintenance up to 
standards and repowering it with a, hopefully, liquified 
natural gas imported and then burned in the generators.
    Senator Cassidy. Now we saw that.
    Going back to the former regime, I remember being struck at 
that plant outside San Juan. It was rusted. I mean, it was just 
amazing how lousy the maintenance had been of that plant.
    But there were two, kind of, I think GE, looked like jet 
engines sitting there generating electricity. Do you anticipate 
this, sort of, LNG associated with these sorts of engines on 
multiple places around the island so it can back up these 
microgrids and the 30 percent renewable?
    Mr. Higgins. Senator, for the first round we're thinking 
of, perhaps a small, not a massive LNG solution for the two jet 
engine installations that you talked about so that instead of 
being fired by oil they'd be fired by natural gas.
    Senator Cassidy. I thought those were being fired by 
natural gas. Do I remember that incorrectly?
    Mr. Higgins. They are not fired by natural gas today, the 
ones at the San Juan generating station that you allude to.
    I also think it's very fair to say that we are not proud of 
the maintenance condition of our fleet, whether it's the 
generating fleet or our transmission grid. That needs to be 
maintained better and our future budgets call for that.
    Senator Cassidy. Lastly, but to my point, it seems when we 
flew there, it seemed as if, again, you have this island way 
over here that was one of the last places to have its island 
restored. As we flew over, that was dark and other things were 
lit. Then you have the mountains separating three or four 
different places. You know exactly what I am stumbling and 
fumbling to try and describe.
    Again, would you put that sort of two jet engines, sort of, 
back in each of those places or are we, again, going to have 
all these lines stretching over the mountains, being vulnerable 
to a big storm?
    Mr. Higgins. Senator, what we're going to try to do through 
the integrated resource planning process that Chair Roman has 
addressed, that Mr. Sobrino has also addressed, that Mr. Walker 
has addressed. Integrated resource planning is a modern, highly 
developed methodology for determining what the right mix of 
resources and grid improvements and technology should be to 
best meet the island's energy needs.
    It's clear that we're not meeting them very well today; 
therefore, the integrated resource plan should identify the 
very kinds of things you're identifying. Where does the 
generation need to be? What kind of generation would make the 
most sense? Meeting all the goals, whether environmental or 
cost----
    Senator Cassidy. Let me stop you----
    Mr. Higgins. Sorry.
    Senator Cassidy. ----because I am out of time.
    I will say that I guess one more question I would have 
asked, and I will ask for the record is, we have just spent all 
this money rebuilding, but it looks as if going forward we may 
redistribute. Knowing that maybe that is how it had to be done, 
it does seem as if there is an inefficiency on resource 
allocation. Again, maybe it had to be done that way, but it 
does seem as if you are going to relocate from your testimony.
    I yield back. I am sorry for going over, Madam Chair.
    The Chairman. Thank you, Senator Cassidy.
    Senator Smith.
    Senator Smith. Thank you, Madam Chair, I am really happy to 
be here today. Thank you all very much for being here.
    I am new to this Committee, but I am just so struck by the 
reality that with Hurricane Maria, we lived, American citizens, 
lived through the second largest blackout in the history of the 
world. It is incredible to think about, and yet we are still 
working to recover from this. And I am thinking about what 
would happen if this had happened in my state of Minnesota and 
we were still waiting to recover.
    I appreciate the complexities of trying to respond to this 
amazing disaster, but I would like to just first go to Mr. 
Walker and Mr. Alexander and try to get at what you think our 
responsibility is in Puerto Rico. We have, this Committee, has 
to be the voice for Puerto Rico here because there are no 
representatives from Puerto Rico on this Committee. But what is 
our responsibility to make sure that we recover quickly from 
this? It feels like it is up to us.
    Mr. Walker. Do you want to take that?
    Mr. Alexander. Ma'am, our responsibilities are, you know, 
tied to the Stafford Act and it's to provide temporary interim 
repairs, not permanent repairs.
    There, we have a, the Corps has a long history in working 
with Puerto Rico. We have an area office there. We work on 
projects. We will continue to be on projects. Our Jacksonville 
district is focused on Puerto Rico.
    But we are, our responsibility is to turn the lights on as 
quickly as possible and other missions assigned, and we're 
doing that to the best of our ability.
    Senator Smith. I appreciate that this is complicated, as I 
said, but I am glad to have this opportunity to figure out what 
we all can do to do better because this is--I think about what 
would happen if we were in Minnesota and we were coping with 
this.
    Mr. Sobrino Vega, I would like to ask you about something 
related to your testimony which I thought was very helpful. We 
know that with climate change we are going to be seeing more 
storms, more frequent storms, more intense storms. Your 
testimony, I think, gets at really laying out the problem that 
we have, all of us have, in Puerto Rico with long-term failure 
to invest and modernize the electricity system and also the 
need for transformation, right, so that it is more sustainable 
and as you say, more customer centered in the way that we do 
this.
    I always like to think about how we can have more 
affordable, reliable, resilient and clean energy as a solution 
to that problem. Could you talk to us a little bit about what 
you see as the federal policy changes that we should be 
considering or the things we ought to be considering from this 
Committee's level to help you to achieve that goal?
    Mr. Sobrino Vega. The main driver right now in the recovery 
effort in Puerto Rico is really the funding.
    The issue with maintaining the infrastructure for PREPA, 
the truth of the matter is that it, PREPA was succumbed to a 
fiscal crisis. When you have any municipality or any entity, 
any public entity, that is involved in a fiscal crisis, 
typically what you'll see is that the first budget item that 
goes down is capital expenditures and maintenance costs. That 
explains why the San Juan plant that the Senator alluded to had 
rusted infrastructure, why you had transmission lines that 
hadn't been replaced. The mere effort of reestablishing 
electricity was, in and of itself, an improvement on what we 
had before.
    So something that we would appreciate is--and the federal 
agencies like DOE, FEMA, U.S. Army Corps of Engineers, that 
have been helping us out on this--is ensure that the 
infrastructure, that the infrastructure funds and recovery 
funds that are provided to the island reflect what is the best 
assessments not only from a conceptual phase up here in 
Washington but what we know in Puerto Rico to be best for the 
island.
    Senator Smith. Thank you.
    I just want to ask a quick follow-up question.
    As we think about the goal of getting more resilience in 
the system as well as more affordability, is there, do we think 
that having more renewable generation takes away from the 
resilience of the system?
    Mr. Sobrino Vega. No, there are inherent difficulties with 
producing and providing energy and fuel to an island. That's 
inherent. That's part of the reality that Puerto Rico faces.
    What we do need to make sure is that while we strive to 
have cleaner and renewable energy sources, we do provide for 
redundancy, so in case that there is an atmospheric event like 
the one ago, we can turn on generators.
    Senator Smith. Yes, that is not the conflict.
    It strikes me that my colleague, Senator Hirono, might want 
to, may well have comments about this, given the similar 
situations that Hawaii has and a huge emphasis on renewables.
    Madam Chair, I realize that I am out of time. I appreciate 
this.
    I am also really interested as a follow-up as we go forward 
on this question that you raised at the beginning about who is 
in charge here and how do we make sure that the coordination 
happens? It needs to happen so we can be successful.
    The Chairman. Thank you, Senator.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chair, for your time and 
testimony. Thank you for allowing this testimony to be held 
today, this hearing to be held today, and thank you for the 
time and testimony of the witnesses today.
    A few questions.
    Mr. Walker, you talked briefly about one of these questions 
already. In your testimony you describe how DOE provided both 
modeling support for the island electric grid and technical 
assistance for the microgrids. I think you answered yes to a 
question basically of, were these grid models used to identify 
microgrid opportunities and the long-term role that they can 
play. I think you have already talked a little bit about that. 
But the models that you used on microgrid modeling, will they 
be made available to future owner-operators of the grid?
    Mr. Walker. Senator, absolutely.
    My team is working with Mr. Higgins' team. We have people 
in Puerto Rico today both from the PMAs from a technical 
expertise standpoint as well as personnel from within my R&D 
organizations coordinating with the national labs providing 
those models.
    Senator Gardner. And so, the modeling techniques, can they 
be used for regional, other national models, within the 
continental U.S.?
    Mr. Walker. Absolutely.
    Senator Gardner. And will there be regulatory innovations 
to address the increased use of distributed energy systems that 
we can transfer then to the 50 states?
    Mr. Walker. Yes.
    We're building the model bigger and larger, a more 
sophisticated model in Puerto Rico, that will be both a 
planning tool and an operational tool with the idea that we 
will be able to transport the lessons learned while we're 
building that model into the broader model for North America.
    Senator Gardner. I think you mentioned that DOE is working 
with the Southern States Energy Board (SSEB) to develop a 
policy and legal framework that would help provide a regulatory 
process for possible restructuring and privatization efforts in 
Puerto Rico. What role is DOE playing there? What is the 
timeline to deliver options and recommendations?
    Mr. Walker. Yeah.
    So mainly DOE's role there was the Secretary and I met with 
Governor Bryant from Mississippi who chairs their Executive 
Board. Recognizing that our expertise within DOE is on the 
technical side of the energy systems, we hired the Southern 
States Energy Board to work with Puerto Rico and USVI mainly 
because both USVI and Puerto Rico are already members of SSEB 
and they have the expertise with regard to regulatory policy, 
working with municipal utilities.
    Senator Gardner. Thank you.
    Mr. Higgins, as you oversee the rebuilding of the grid you 
have talked about resiliency, but how broad of a definition 
does that resiliency cover? Do you have the ability to not only 
withstand storms, but manmade, physical and cyber threats as 
well with this new resiliency?
    Mr. Higgins. I think as the grid, Senator, as the grid is 
redeveloped and much along the lines of what Assistant 
Secretary Walker talked about, we will build into some of these 
new systems more resistance, more resiliency to, let's say, a 
cyberattack.
    As we rebuild and redesign the grid to the newly adopted 
standards and with the help of the Federal Government, which we 
appreciate, we'll be able to build some of these things, these 
structures, so that they're more resistant to the next storm 
that might come.
    Senator Gardner. Okay.
    Do you have the ability or authority to hire a manager team 
at PREPA? What authorities do the Governor and legislature 
retain in assigning or approving the management team there?
    Mr. Higgins. I was asked to come to Puerto Rico with the 
full knowledge that I could replace anybody in management that 
I felt I should replace. I've received no interference on that. 
The Governor has made clear to me that I am an independent CEO, 
have the authority to replace management as I see fit.
    Senator Gardner. So, the Governor and legislature, what if 
any do they retain in terms of authorities?
    Mr. Higgins. The Governor is the Chief Executive of the 
island and he sets policies for the island. And my job, as the 
head of a major state agency, albeit under an independent 
board, is to carry out the policies of the Governor.
    Senator Gardner. But in terms of assigning or approving 
your manager team, you have that full authority?
    Mr. Higgins. Completely.
    Senator Gardner. Very good.
    Mr. Roman, I am sorry, go ahead Mr. Vega, I am sorry.
    Mr. Sobrino Vega. I would like to clarify that.
    Walt is the first CEO of PREPA that was appointed through a 
non-politically influenced process. He was selected through a 
headhunting mechanism. He was evaluated by a committee of 
directors that was comprised of the independent directors of 
PREPA, and he was selected and his compensation was also 
established through that governing structure. And that is 
something that we are very proud of that we have this first, 
non-politically appointed CEO for PREPA.
    Senator Gardner. Thank you.
    Mr. Roman Morales, in your testimony you expressed 
frustration with both the Governor's office and FOMB contending 
they are impeding in the Commission's ability to implement 
measures that would push PREPA toward financial and operational 
responsibility.
    Could you talk a little bit more about those frustrations 
directly?
    Mr. Roman Morales. Yeah, sure. Thank you, Senator.
    Yeah, I have expressed my frustrations, one with Fiscal 
Oversight and Management Board because of what we see as being 
an overreach of the delegated powers by Congress. So, I would 
ask Congress to really specify the FOMB, they should operate 
within trying to harmonize commonwealth law and not against 
commonwealth law.
    As we see it, Congress delegated the Fiscal Oversight and 
Management Board fiscal duties, but not policy responsibility 
within the island. That remains completely within the 
Commonwealth of Puerto Rico and where the Commonwealth send 
delegates to the Commission, then the Commission would carry 
out its duties.
    For fiscal problems, the Commission isn't self-sustainable. 
Our funding comes through rates. We have not been able to fully 
utilize our funding through the hiring of either external 
counsel or external consultants or hiring personnel because of 
this law that requires the approval of the Office of the 
Governor. And that has taken a long time to acquire. That has 
actually impeded the performance of the Commission.
    Senator Gardner. Thanks again. Thanks to all the witnesses.
    Thanks, Madam Chair.
    The Chairman. Thank you, Senator Gardner.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Mr. Higgins, let me start with you. During our last hearing 
on this subject, it was made clear to the Committee that the 
Stafford Act, as written, requires funds to be used only to 
restore damaged equipment to its previous state which made no 
sense for Puerto Rico given the disrepair its electrical system 
was in prior to the hurricane.
    In the budget bill that we passed in February a provision 
was included allowing funds to be used to replace or restore 
systems to the industry standard without regard to the pre-
disaster condition of a facility. It also allowed flexibility 
to allow components not damaged by the hurricane to be replaced 
in order to bring a larger system up to industry standards.
    My question to you is, does this provision go far enough in 
enabling PREPA to rebuild for resilience and reliability?
    Mr. Higgins. Senator, I think that the way it's written and 
subject, of course, to funding, it does go far enough. These 
are serial activities. You can't redesign and rebuild a system 
from scratch and completely upgrade it to the new standards. 
You had to get the power back on first, so that's been the 
priority.
    But as I understand the funding, as it's been explained to 
me, as I read it, provided it is funded, there is enough 
authorization activity and hopefully funding to rebuild the 
system so it meets modern standards.
    Senator Cortez Masto. Mr. Walker, let me ask you the same 
question. Do you think that we need to take any further action 
in regards to the Stafford Act in order to achieve power and 
resiliency in Puerto Rico?
    Mr. Walker. Thank you for the question, Senator.
    Yes, I do.
    When testifying in front of the House I spoke to this a 
couple weeks ago, and my point was that there's an opportunity 
for us to allow engineering to be done to modify and make 
corrections with regard to design, particularly to add the 
resiliency.
    And so, rather than be held to what a standard may very 
well be, there are opportunities. And I think Puerto Rico has 
presented many of those, where we could have replaced and made 
decisions early in the restoration process to increase the 
capability for, let's say, a line. And so, I could build it 
with, you know, double up lock poles as opposed to what the 
industry standard might be a single lock.
    So I think the capability to allow those who are on the 
ground, making decisions with regard to the emergency 
restoration, to incorporate the ability to modify the system 
and to add capability whether it's through redesign or just 
stronger equipment, even if it exceeds industry capacity or the 
industry standard.
    Senator Cortez Masto. And that is true for not just Puerto 
Rico, but some of the other islands that sustained damage as 
well?
    Mr. Walker. That's right.
    Senator Cortez Masto. Thank you.
    Would you be willing to work with my staff as we address 
these issues?
    Mr. Walker. Yes, ma'am.
    Senator Cortez Masto. Thank you.
    Mr. Higgins, let me go back to a question that came up, and 
I believe it was the Chair who talked about this and the 
concern with the Corps leaving May 18th and my understanding 
with PREPA taking over.
    You mentioned in your response to the Chair that as you 
take over these logistics that there are going to be challenges 
to take over the logistics to engage in the continuing 
recovery. What challenges were you talking about?
    Mr. Higgins. There's a--Senator, thank you for the 
question.
    There's a massive amount of material both still coming in 
and that needs to be reintegrated into PREPA's warehouse system 
from the Army's warehouse system that they very capably 
developed in order to fight the battle, so to speak.
    And so, our people are now in the process of receiving all 
that material and all the paperwork that goes along with it so 
that everything is properly accounted for, along with getting 
all the material out of the laydown yards and the Army 
warehouses, getting out of the Army warehouses. That's a lot 
more things than the company was normally doing.
    In order to do that efficiently we've asked for some 
temporary help, but our people feel they're capable, and I 
agree with them, of managing the ongoing material requirements, 
but this transition period where we're getting a lot more 
stuff, we have a lot more things to do and we have to comply 
with FEMA requirements all the way along the way to be sure 
it's reimbursable.
    Senator Cortez Masto. So you say you are going to be 
getting help. Who is providing the help for you?
    Mr. Higgins. FEMA will fund some temporary help for us. I 
don't know exactly the source, Senator.
    Senator Cortez Masto. Would you prefer that the Corps 
extend its mission and stay and continue?
    Mr. Higgins. We've been delighted with the work the Corps 
has done. And at the end of the day, it's not really PREPA's 
decision. We're very interested in how the work got done and 
the Corps engaged contractors to do that work. And they've done 
a good job. The Corps also took over the logistics operation 
which was very helpful.
    We just want it done. We're not indifferent. We want the 
job done well. We have more contractors coming to the island to 
replace the Corps' soon to depart contractors. We don't choose. 
This is FEMA's choice, but I think the FEMA is making a choice 
that's dictated by what their guidelines are as well.
    Senator Cortez Masto. Alright, thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    Senator Lee.
    Senator Lee. Thank you, Madam Chair, for holding this 
hearing. Thanks to all of you for being here.
    I would like to start with Mr. Alexander. Are you concerned 
about mismanagement within PREPA?
    Mr. Alexander. No, sir. I am not.
    We've been a partner. We've been in collaboration with 
PREPA since day one, and we've been working out of their 
headquarters. I believe it's been a partnership that has led to 
our ability to get as far as we have.
    Senator Lee. Are you aware of any ongoing investigations 
regarding the missing inventory information for Warehouse Five, 
located near Puerto Rico's Palo Seco generating station?
    Mr. Alexander. Sir, I'm not aware of any.
    Senator Lee. Can you tell us why the raid of Warehouse Five 
was conducted on January 6th?
    Mr. Alexander. I don't know if I would characterize it as a 
raid. I believe it was just some of our personnel were there 
and they happened to notice that there were supplies in our 
warehouse that had not been previously identified when we were 
working with PREPA to inventory the stocks on hand which would 
ultimately help inform what we needed to procure.
    Senator Lee. Since that operation, whether you call it a 
raid or otherwise, do you have reason to believe that there are 
other gaps in PREPA's inventory?
    Mr. Alexander. No, I think an extensive joint inventory was 
done. And again, that's what resulted in the material we 
procured, about 90+ percent of the 36 million items that we 
ordered has been delivered. I think that we'll find the 
inventory will be suffice and allow PREPA to not only have 
replenished stocks but to finish the restoration mission.
    Senator Lee. Okay.
    Mr. Higgins, I would like to talk to you for a moment.
    In November, before this Committee, I asked Governor 
Rossello about some of the serious issues with PREPA's 
management and operation.
    I would like to follow up on that by asking you directly, 
do you think there is mismanagement and corruption within PREPA 
in Puerto Rico, generally, and in particular within PREPA?
    Mr. Higgins. I have no idea about Puerto Rico, Senator. I 
don't know enough about it yet to know that.
    I can tell you this, that with respect to PREPA there are 
always going to be in an organization of 6,000 people, 
something that's going on that shouldn't be, and we're going to 
vigorously investigate and go after anything that's not done 
the right way.
    Similarly, I've told all the Senior Managers that were 
there when I came, it's time for you to decide if you want to 
be a part of the solution or you don't. And if you don't want 
to be a part of the solution, tell me now because if you don't 
tell me and I have to make a change, it's not going to be nice. 
So, some may make it, some may not.
    I'm optimistic that some get it, that PREPA is going to be 
different in the future, but I've made quite clear to them, 
you've got to be different, you've got to be a different kind 
of leader and run the company differently than it used to be 
run.
    Senator Lee. To the extent you are suggesting that PREPA is 
no more susceptible to or vulnerable to or the victim of 
mismanagement and corruption than any other business 
organization or any other utility company, state owned or 
otherwise. I don't think you are suggesting that, are you?
    Mr. Higgins. No, sir, I am not.
    I'm simply saying that within a group of 6,000 people 
there's likely to be somebody that's not doing the job the way 
they ought to. Hopefully, it's just not doing the job as 
opposed to something corrupt, but anything that we find that 
even suggests corruption will be seriously and thoroughly 
investigated and dealt with strongly.
    Senator Lee. Some of the things that have concerned me 
involve reports of staff being hired without experience or 
expertise required for the job that sometimes resulted in the 
failure of big, multi-year projects, widespread theft of power 
and billing failures, outdated infrastructure systems that 
cause an unusually high rate of forced outages and generation 
units that are often technologically outdated requiring 
reliance on very expensive fuel. Are you aware of some of those 
problems and are you taking steps to address them?
    Mr. Higgins. Senator, several of the last few you mentioned 
were covered in my remarks that we do have maintenance issues 
with our generators. We do have environmental compliance issues 
with our generators. And if they're not able to be run for 
environmental reasons, they have to be shut down. If our 
generators are not up to snuff, maintenance wise, then we do 
have to run a less efficient, more expensive generator.
    There's no question that is going on. That needs to be 
fixed. That's part of my mandate.
    Senator Lee. Thank you. I see my time has expired. Thank 
you.
    The Chairman. Thank you, Senator Lee.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    Question for Mr. Alexander. In a May 6th article in the New 
York Times, the Commanding General of the U.S. Army Corps of 
Engineers, General Semonite, was quoted as saying that, ``prior 
to Puerto Rico, the Corps had never repaired an electric power 
grid of this magnitude as part of a domestic disaster response 
and could not predict the assignment from FEMA to restore the 
grid.''
    Do you believe that the Corps should be tasked with grid 
repairs in future natural disasters because there will be more, 
beyond its more routine task of bringing in generators? As you 
said, your immediate mission was to turn on the lights. So 
should the Corps be able to do more than just turn on the 
lights in a situation like what happened in Puerto Rico?
    Mr. Alexander. Thank you, Senator.
    You know, the Corps has traditionally just done the 
temporary emergency power generators. This was a new mission 
set.
    We have done some grid work in Iraq and Afghanistan, but 
certainly nothing to this extent. It's not a core, c-o-r-e, 
competency of ours.
    The decision on whether this should be, you know, 
incorporated in our portfolio of services is not ours to make, 
but if it is made, then we would have to train our personnel 
and be resourced adequately to be able to execute that mission.
    A lot of this was done on the fly, if you will. We were 
able to get contracts in place quickly under federal 
acquisition regulations due to the large contract vehicles that 
we had in place.
    Senator Hirono. So you say the decision to expand the 
mission of the Corps is not yours. Whose decision is it? The 
Congress?
    Mr. Alexander. Well, the determination for the grid 
restoration mission for the Corps to end at midnight on the 
18th, that decision is by FEMA. You know, we're there under the 
Stafford Act authority and under the associated resources. We 
run out of money on the 18th and we run out of authority.
    I would tell you, based on a statement made earlier, and I 
would be remiss if I didn't say, you know, the thousands of 
Corps of Engineer employees and military that have deployed to 
serve the citizens of Puerto Rico, it's not in our culture to 
walk away from a mission----
    Senator Hirono. Yes.
    Mr. Alexander. ----when it hasn't been fully accomplished. 
But we follow orders. We follow orders and----
    Senator Hirono. Yes, I understand that, especially because 
I know that FEMA was on Kuai and they're on the Big Island 
right now. So this is not denigrating anything that FEMA is 
doing.
    It's to ask whether or not we should in instances such as 
Puerto Rico which is a very unique island nation, on an area 
just like Hawaii is, whether there should be some greater 
flexibility under the Stafford Act to allow you to do more and 
to have more training and, of course, depending on resources 
provided.
    Mr. Walker. Senator, if I may answer this question.
    I do not believe that the Corps should be focused on 
emergency restoration for power grids as an expansion of their 
duties.
    The Corps was assigned, a mission assigned by FEMA, because 
PREPA did not call for mutual aid. The standard within the 
industry is that any utility, whether it's an EEI or NRECA or 
APPA, they call for mutual aid and command the resources across 
the entire United States and Canada to restore events. And so, 
but for that failure to call for mutual aid, that is what 
resulted in FEMA mission assigning the Corps to undertake the 
emergency restoration component.
    So, had the process worked as designed and the reason why 
General Semonite indicated in his article that it was the first 
time, it is, in my nearly 30 years working the industry, it's 
the first time I've never seen mutual aid called.
    Senator Hirono. So this is a responsibility of PREPA to 
have a call for that mutual aid?
    Mr. Higgins. Excuse me.
    Senator Hirono. And so, Mr. Higgins, have you rectified or 
has somebody rectified this omission?
    Mr. Sobrino Vega. Senator, we did eventually call for 
mutual aid. At the time when Hurricane Maria hit Puerto Rico a 
lot of the utilities and the companies that would be providing 
it usually were essentially busy in Florida and Texas.
    Before that, after Irma, PREPA had hired certain 
contractors to help in the restoration process and the mission 
for the Corps, as I remember, because I was there, was signed 
because they put it in front of the Governor and asked him to 
sign it so that we could have energy in 40 days. So it's a 
little more complicated than as narrated before.
    Mr. Walker. I'm not sure that's accurate because I was 
there.
    Mr. Sobrino Vega. I was there, sir.
    Mr. Walker. As was I.
    Senator Hirono. So obviously there needs to be more 
coordination because we can expect various kind of weather 
conditions to be hitting simultaneously in all parts of the 
country and our territories. I think that this is something 
that needs to be resolved.
    Mr. Walker, did you?
    Mr. Walker. Yeah, just for the record, the request for 
mutual aid came on October 31st.
    Senator Hirono. And the hurricane hit when?
    Mr. Walker. Late September.
    Mr. Sobrino Vega. September 20th and the contractors were 
there in five days.
    Senator Hirono. That sounds like an area for rectification.
    I am running out of, in fact, I have run out of time.
    I will submit some further questions relating to the 
flexibility that we provided under the Stafford Act.
    The Chairman. Thank you, Senator Hirono.
    I will just share that one of the impressions that I had 
when we visited less than a month after the hurricane hit was 
the difference between the U.S. Virgin Islands and Puerto Rico.
    One had teed things up so that mutual aid assistance was 
going to be there in anticipation of the disaster. And 
literally on the day after, there were crews coming from the 
continental United States into the USVI to help with just the 
debris cleanup.
    But the decision not to act, not to act for a full month 
afterwards, I think, was one of those decisions you look back 
on and say, we could have seen a different effort in terms of 
what could have come to Puerto Rico more readily.
    A lot of Monday morning quarterbacking goes on, but I do 
think that is a very clear example of one place being prepared 
in anticipation of the disaster and another hoping to get lucky 
and they did not get lucky.
    Senator King.
    Senator King. Thank you, Madam Chair.
    First, I want to thank you and Senator Cantwell for 
arranging this hearing on this important topic and acknowledge 
the role that, I believe, Senator Nelson played in trying to 
encourage us to work on and look into this problem. I know that 
he exerted a great deal of leadership on this issue.
    I am a little unclear. We now have 98 percent restored. 
Does that mean the system is all rebuilt and have we rebuilt 
the old, vulnerable system?
    Mr. Alexander? Are we, have we gone beyond building a new 
system? In other words, are we patched up to work for now or 
have we precluded the opportunity to build an entirely new and 
modern system?
    Mr. Alexander. Well, sir, our mission wasn't to build a 
modern, resilient system. Our mission was to do the interim 
measures to get power restored and in that Department of Energy 
has been supporting us.
    I think the longer-term resilient grid you mentioned, the 
Department of Energy could play a heavy hand in that, as well 
as PREPA.
    The notion that our Chief of Engineers would say that 
Puerto Rico would have power in 40 days, here sign this, is the 
first time I've ever heard this.
    Our Chief is very clear on expectations and when power 
would be established, the different dates, the different 
percentages. And it was not consistent with what, I believe, 
the Governor unilaterally declared which we never agreed was 
feasible.
    Senator King. Okay.
    So we have the system back up and running. Again, my 
question is whether we have, sort of, gone by the moment when 
we might have built a different kind of system.
    Who is in charge? Who makes the next decisions about what 
the system is going to look like? I asked that question the 
last time, and I am still not sure I know. Who will make the 
decision, for example, to go to a more distributed system as 
opposed to the current baseload diesel plan and wire cross the 
isle?
    Mr. Sobrino Vega. Senator, regarding how the structure for 
generation is connected in Puerto Rico, that is a policy choice 
that's handled through the legislative process, through the 
regulatory process at PREC. Regarding infrastructure funding 
and investment, especially when it comes to----
    Senator King. Before we even get to funding, I want to know 
who is going to decide do we maintain the current baseload, 
long wire system or do we go to a different kind of system. Is 
that PREPA? Is it----
    Mr. Sobrino Vega. As in any state, it is the government 
through its legislative process in discussions with the 
regulatory authority.
    Senator King. No, that is not true in my state.
    Mr. Sobrino Vega. Who does----
    Senator King. The utilities make proposals. The Public 
Utilities Commission approves them. The legislature doesn't 
design the grid.
    Mr. Sobrino Vega. But in Puerto Rico there is--PREPA is a 
public corporation so it is subject to certain legislation. 
That's why we want to transform PREPA to have private operators 
so that it is completely de-politicized, disconnected from the 
legislative process and it can look like a utility in the 
mainland.
    Senator King. Well, Mr. Higgins, do you have the authority 
to start to redesign the system?
    I have a very limited amount of time, so, give me a quick--
--
    Mr. Higgins. I believe that through the auspices of the 
integrated resource planning process and through the auspices 
of the various initiatives that have been undertaken providing 
longer-term funds and opportunities to make the grid more 
resilient, we can do exactly what you say. We can figure out a 
better way to do it.
    Senator King. What is the price of electricity today all 
in----
    Mr. Higgins. Around $0.20 a kilowatt-hour.
    Senator King. In my state we are building a 50-megawatt 
solar project. This is in the State of Maine. Our costs are way 
below $0.20, and it is competitive. I just read that last year 
we are down to $0.06 a kilowatt-hour for solar.
    Why isn't this the natural response in Puerto Rico? Why are 
we doing 47 percent diesel, 17 percent coal, 34 percent gas, 2 
percent renewables in a state with one of the great solar 
resources in the history of the world?
    Mr. Higgins. Senator, I believe that it's fair to say that 
that's probably where things are going to go, but that has to 
be taken through a process that everybody buys into, properly 
funded, a plan made for how we get rid of the old generation, 
where to locate the solar, how to put individual and 
distributed solar projects around, how to bring, perhaps, 
liquefied natural gas to the island so we can be cleaner.
    Senator King. And I get back to my initial question. Is 
that going to be your decision or is that going to be a 
political decision? Who is going to decide how this new, what 
this new grid is going to look like?
    Mr. Higgins. I believe it will be my decision subject to 
the oversight of the PREC that Mr. Roman runs and through the 
auspices of the Oversight Board which has to approve my 
integrated resources.
    Senator King. I understand there is discussion of divesting 
generation from transmission which has happened lots of places 
in the U.S., including in my state. Who will regulate the 
remaining wires? I understand that will still be a public 
company or publicly owned company. Will there be a regulator of 
the wires company, the wires and distribution company?
    Mr. Sobrino Vega. Yes, the Energy Commission, represented 
by Mr. Roman, will continue to be a regulator.
    Senator King. And the wholesale production of energy will 
be unregulated up to competition?
    Mr. Sobrino Vega. No, sir, that would be subject also to 
regulation by Mr. Roman's entity and would be subject to the 
concession or the asset sale contracts that are signed by the 
parties.
    Senator King. Well, I appreciate the constraints and I 
really appreciate your being here, but I hope we don't lose 
sight of the big picture that Puerto Rico could go from a 
challenged electrical system to a world leader given the 
natural assets that the island has and solar prices have 
plunged 80 percent since 2010.
    Enormous opportunity, I hope. I look forward to working 
with you to help seize those opportunities.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    Senator Daines.
    Senator Daines. Thank you, Chair Murkowski and Ranking 
Member Cantwell for holding this hearing to reevaluate the 
progress made and certainly the lessons learned in addressing 
Puerto Rico's energy needs and others nearly six months 
following a natural disaster.
    Like others, I was troubled to learn that PREPA had 
contracted with an energy company, although based in my home 
state, with minimal experience. While I understand the need to 
move quickly, given PREPA's and the island's financial state, 
it is equally as important that these quick decisions are made 
with the best interest of ratepayers and taxpayers.
    Mr. Sobrino Vega, what kind of oversight is in place with 
respect to PREPA's finances, and the other part of that 
question, in your view does PREPA have sufficient internal 
controls in contracting expertise?
    Mr. Sobrino Vega. So following the contracting issue that 
you alluded to, Senator, we, the Governor, instituted a limited 
receivership over the contracting process in PREPA. It's called 
the OCPC, the Office of Contract and Procurement. It has 
effectively conducted its oversight of the procurement process.
    We have to submit those contracts also to the Fiscal 
Oversight Board under Section 204 of PROMESA. To this date, 
they have not denied any of those contracts for consistency 
with the fiscal plan in the budget.
    Those contracts, when they are to be reimbursed by FEMA, 
also are now subject to a pre-audit and that has also been 
conducted successfully.
    Regarding PREPA itself, it is subject to fiscal oversight 
by state authorities and it is subject to the oversight, to 
fiscal oversight by the Fiscal Oversight Board under PROMESA.
    Senator Daines. When were those additional controls put in 
place?
    Mr. Sobrino Vega. Sorry?
    Senator Daines. When were those additional controls put in 
place?
    Mr. Sobrino Vega. I don't remember the exact date, but they 
were following, I believe, they were in October and November, 
yes.
    Senator Daines. Okay.
    Had they been in place before, do you think it would have 
prevented this contract issue?
    Mr. Sobrino Vega. I think that learning from what we've 
seen in the USVI, maybe in Hawaii and other islands, we would 
implement probably, best practice, like conducting RFPs and 
activating mutual aid agreements before hurricane season. The 
USVI, for example, is subject to more hurricanes than Puerto 
Rico had been historically. This was a matter also, we had 
limited resources from the mainland. The USVI is much smaller 
than Puerto Rico, so bringing in resources to the island was 
difficult. So we do have to do work on our emergency planning 
for atmospheric events like Hurricane Maria or Irma.
    Senator Daines. Mr. Higgins, PREPA has had serious problems 
with debt and mismanagement. Given the disaster situations, 
will customers be able to pay for the service?
    Mr. Higgins. Senator, I'm not sure I exactly understand 
your question. Is it a question about the rates the customers 
pay?
    Senator Daines. Yes.
    Mr. Higgins. We're some distance yet from a final decision 
on how PREPA will be restructured and taken to the bankruptcy 
judge, if you will, and how all the different contracts and all 
the different activities of PREPA.
    We now have a certified budget and that will guide us and 
that certified budget will imply some rates that will have to 
be submitted to Mr. Roman's organization for approval. So we're 
in the process. The goal of many of the activities that are 
being undertaken inside the entity now are to reduce the cost 
pressures and reduce the cost so that there's less upward 
pressure on the rates.
    So, I think the bottom line is, with the federal help that 
we're getting and with cost control measures underway, and with 
an adequate set of solutions to the many, call it, contractual 
problems we have, the rates are going to end up being fair and 
acceptable to the customers, given that they're already too 
high and they will need to come down over time.
    Senator Daines. In your written testimony you mentioned 
your concerns about PREPA having only two months of operating 
expense and liquidity. How can this be addressed?
    Mr. Higgins. In the short-term, we need to start doing a 
better job, which we're trying to do, of collecting from our 
customers in real time. We're only able to get about 80 percent 
of the customers billed now because the automated meter reading 
system depends on some substation devices that are, have not 
yet been replaced. And the substations, in many cases, a large 
portion of them, are still out of service. That will help in 
getting the bills out and getting that cash flowing in which is 
now about $50 million a week. That will help a lot. And the 
continuing support of the bankruptcy court for loans that would 
come from the Commonwealth of Puerto Rico, they are actually 
who we borrow from, will help us to bridge through.
    We'll be back asking for more if we need it when the--in 
the next few months of the new fiscal year.
    Senator Daines. Thank you, Chair Murkowski.
    The Chairman. Thank you, Senator Daines.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    I apologize for not being here earlier. This is an 
important hearing, and I certainly appreciate all the witnesses 
being here and the attention to detail.
    And Mr. Higgins, it is good to see you. I know that we 
fought another battle together to make sure that ratepayers and 
taxpayers got a fair deal after a lot of market manipulation, 
so it gives me some degree of comfort to know that you are 
helping in this.
    Although, I'd have to say this recent run-up in debt 
securities where the hedge funds are profiting off of this is 
some of the frustration that, at least, we were concerned about 
before. And to me, it is, really, it is shameful. We are trying 
to get something done here at taxpayer expense. We will save 
this to a different oversight hearing about that operation.
    But I did want to go to, I did put out a larger statement 
that I won't go into now. Mr. Walker, I wanted to go back to, I 
know some of my colleagues while I was sitting here, they were 
asking about the blackout condition. What was the main cause of 
that?
    Mr. Walker. Based on the information we know and when that 
happened, working with Mr. Higgins, the thing that I think 
people neglect when looking at it, is the system is not in its 
normal state by virtue of that there's two main transmission 
lines that go from the south to the north on the 230 kV system.
    One of those lines is out and being worked on which places 
all of the northern, or the majority of the north/south 
corridor, basically, relying on that one line. And the relays 
are set and designed to operate with the system in, basically, 
it's normal state. The system is not in its normal state for a 
variety of different reasons, including that transmission line 
that they're working on, and it's surmised and I think Mr. 
Higgins, his team has done more and I know he's been working 
with folks from NYPA, relay experts, to look at the details. 
But it looks like that there's an overtrip mechanism or 
overtrip of the relays based on the abnormal state of the grid 
and maybe, Walt, if you want to add any more?
    Mr. Higgins. I think Assistant Secretary Walker's comment, 
Senator, is very appropriate that the grid is very weak right 
now because a number of lines are still out, but notably, one 
of the main transport lines to take power from the south to the 
north.
    When an incident occurred that caused a protective action 
to start on an adjacent line, the way the relays were set which 
was probably right for the normal system, caused the entire, an 
entire set of lines to trip off. And then you suddenly had a 
mismatch. And an electric system can't handle a mismatch for 
very long and then things start tripping.
    So, as a result of that, we just didn't have enough 
generation in the northern part of the island to hold the load. 
Therefore, everything started to trip. That's just the way it 
protects the system by turning things off before they're 
damaged.
    Senator Cantwell. Was this something that was originally 
fixed or reset, if you will?
    Mr. Higgins. No.
    Senator Cantwell. No.
    Mr. Higgins. Not to my knowledge.
    Senator Cantwell. So this did not have anything to do with 
Whitefish?
    Mr. Higgins. No, no.
    This is--the issue starts with not enough generation in the 
north and too much in the south. And then the second thing that 
when the grid is in a bad condition, which it is right now 
until that second line is built, then you're vulnerable to 
almost any kind of incident. And then third, we really have to 
look at--and this is what the Department of Energy's currently 
helping us with as were the NYPA workers, the NYPA relay and 
protection experts--are there things that we could do to better 
operate in these abnormal conditions that exist right now? So 
we're getting help on all three fronts.
    Senator Cantwell. Okay.
    And now to this proposal on the Energy Commission and 
changes to it. I don't know that any utility operates this way 
in the United States--basically considering what NARUC 
recommends as far as an energy commission.
    Mr. Alexander, do you think this will make us less or more 
independent, this effective independent regulator?
    Mr. Alexander. Ma'am, that's not an area that the Corps 
usually delves into, so I don't have an informed opinion.
    Senator Cantwell. Okay.
    Mr. Higgins, do you have any comments?
    Mr. Higgins. As the recipient of regulatory activity in 
many, many places I've lived in my life, I believe that nothing 
is better for a customer in the long run than a fair, firm, 
strong, well-managed, regulatory entity and nothing is better 
for a utility. At the end of the day, the customers get better 
rates, better reliability and their utility knows what the 
rules are and they operate by it.
    Senator Cantwell. Well, I guess that is why I would be 
concerned about having all of the appointees and then being 
able to ignore it as well as being somewhat concerning. But 
again, that is something that we will have to keep our eye on 
and watch carefully for the future.
    My colleagues were discussing distributed generation. Do 
you think that we have enough in place now to focus on that 
given this load issue?
    Mr. Higgins. Senator, do you mean enough distributed 
generation?
    Senator Cantwell. Enough in the framework of discussion, 
not so much in distributed generation, but my colleagues were 
asking which I think is a viable question. It's a viable 
question. You know, we have this all the time as it relates to 
FERC and its oversight.
    Given some of the changes that are being recommended, do 
you think that there is a framework that exists within Puerto 
Rico to properly vet and incent distributed generation?
    Mr. Higgins. I think more work will have to be done to make 
that work well in Puerto Rico, regulatory work, perhaps 
legislative work and certainly work within PREPA.
    But we do need distributed generation and it will be 
adopted, I believe, as a result of the integrated resource 
planning process.
    Senator Cantwell. Okay, would you get back to us on what 
legislative ideas you think we might need to make that a 
reality because to me this is, look, I know all our colleagues, 
well actually, I don't know what all our colleagues think, but 
I hear them and a lot of them think this tragedy happened and 
now we're going to build this most resilient grid.
    As Mr. Walker just said, we basically got the grid up and 
running to the best of our ability, okay? Now we know that 
hurricane season is about to hit again, so people are going to 
come back to us and say, I thought we built the most resilient 
grid. No, we put some money toward that, but obviously we all 
know that distributed generation could help in the reliability 
of this.
    Listen, the Chair and I want to get about rebuilding our 
own grid and making it smarter. We hope our House colleagues 
will help us get a bill at some point in time.
    But I think that the key thing now for us in Puerto Rico is 
to make sure that the regulatory process does allow for some 
distributed generation that would help us with resiliency. And 
so, if there are barriers to that, I certainly want to know and 
I would think some of my colleagues would as well.
    Mr. Higgins. Senator, I do not mean to imply any federal 
actions needed. Mr. Sobrino talked about several legislative 
initiatives in Puerto Rico about policies and that's the kind 
of thing that might be needed to really make this work.
    Senator Cantwell. Okay, great.
    Alright, thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    A few more follow-on questions here.
    Mr. Walker, in your testimony you mention the report on the 
energy resilience options and potential solutions for the grid. 
You said it is nearly complete. When might we see that report?
    Mr. Walker. So, the final draft was done on the 30th. It's 
going through final edits and we'll be presenting the report at 
the next meeting of the Undersecretaries from all the 
responding agencies which, I believe, is next Wednesday. And at 
that point we'll be distributing that report.
    The Chairman. Okay, great. We will look forward to that.
    You also mentioned, talking about microgrids, the national 
labs' work through the microgrid design tool and you indicated 
in your testimony here this morning that you had identified 
some key locations.
    Can you share with us what you are looking at and probably 
as important as where they are is whether or not these 
microgrids have the support of the local folks there to use the 
land and basically are signed on to the fact of having this 
opportunity, as opposed to obtaining power from central 
generation?
    Mr. Walker. Sure.
    The focus on microgrids is diverse. Our initial work on the 
microgrids was with PRIDCO, which is the Puerto Rican 
Industrial Development Company, who owns 200 pieces of property 
throughout, industrial pieces of property throughout the 
island.
    We were working with them to help facilitate providing 
better power quality for a number of the industrial customers, 
particularly those that were out of power, to ensure that the 
economic vitality of the island remained intact while we were 
going through the emergency restoration component.
    In addition to that work being done, we're now working with 
PREPA to identify, kind of, the last mile, you know, isolated 
communities where we can do that and also with FEMA and the 
Corps for those locations where we had placed generation for 
critical infrastructure and continue to have generation at 
those critical infrastructure locations.
    The idea being that by providing those microgrid 
capabilities there, the next time an event like Hurricane 
Maria, which is inevitable, is presented to us, there will be 
some level of normalcy that can be established to help 
facilitate the health and safety of those on the island while 
we work to go through our restoration effort again.
    The Chairman. In that vein there has been a lot of 
discussion about the smaller islands off of Puerto Rico, 
Vieques and Culebra, which you look at them and you say, well, 
it makes total sense that these would be perfect opportunities 
for the microgrid pilot projects.
    Can you give me any update and maybe, Mr. Higgins, you 
might be able to jump in here or Mr.----
    Mr. Walker. I can answer the question.
    The Chairman. Okay.
    Mr. Walker. So, Vieques and Culebra are being designed to 
be a microgrid where Vieques will be separated from the 
mainland initially. There's two underground or undersea cables 
that presently feed it. Those are inactive. There was an RFP 
that went out for localized generation, diesel generation 
that's presently there with work being done to develop the best 
microgrid strategy for Vieques and Culebra going forward.
    The Chairman. So we don't have that strategy identified 
whether it is wind, solar or a combination.
    Mr. Walker. There's an RFP that----
    The Chairman. Okay.
    Mr. Walker. I'm not sure if it's gone out or is going out 
with regard to seeking the best information, you know, from 
providers for those strategies.
    We will be, DOE, will be working with PREPA to evaluate the 
RFP submittals once they're coming in, utilizing the expertise 
that we have within our national labs on microgrids.
    The Chairman. Okay, great.
    Let me ask you, Mr. Higgins, for an update on restoring 
power to some of the more remote and the more mountainous 
areas.
    When several of us on the Committee went to Puerto Rico in 
October we went out to Barranquitas--pretty isolated in the 
sense of where it was.
    I will tell you, you are left with impressions of 
conversations that you have with people at certain places. And 
a conversation that we had with a young woman who was five 
months pregnant who was looking across this cut through the 
earth, this ravine that separated us. The road was taken out 
but she was separated from the home that she had just bought 
and had not been able to move into because of the damage that 
was done, not to her home, but in order to access her home. I 
was thinking about her just a few days ago and the fact that 
okay, she has had that baby by now. Hopefully all is well 
there, but I have wondered whether she was ever able to get 
back to her house and whether her home has been restored to 
power.
    Can you tell me how things are looking there in those 
central mountain areas and what the plan is?
    Mr. Higgins. Senator, thank you for the question.
    You've identified the hardest part of this restoration, and 
we're down now to where we're getting less than or sometimes 
only one-tenth of a percent additional customers restored on 
any given day. That's not very many. There were days before 
when we'd get a half percent or even one.
    Now I use that as an example because we still have about 
1,500 people out in the field working every single day to 
restore these distribution customers. That's in addition to the 
300 or 400 that are working on the transmission lines which you 
just can't put as many people on.
    There are many, I think, situations like the one you 
described. There's no question that that's going on. Many of 
our employees still don't have power because they live in 
similar places.
    So in addition to continuing to work down the lines, and 
that's exactly what the crews do, we also have an initiative to 
try to identify the ones that are just really too hard to get 
to in any reasonable amount of time, for any reason. And 
sometimes, quite literally, you're crossing a canyon, kind of 
like you describe, or you're going through, almost a jungle, in 
almost rainforest, trying to refinish a line or put back up a 
line that is 1,000 feet long and down.
    We're making progress, not nearly as fast as our customers 
would like, not nearly as fast as we would like, but we're 
doing about as good as you can do in these very narrow, very 
tight areas where you almost can't even drive two trucks past 
each other.
    So we're continuing with, you know, a lot of people working 
on it. I think we try very hard to get there as fast as we can. 
It will never be satisfactory to the person whose power has 
been out for seven or seven and a half months. There's nothing 
we can do to make that better except continue to work really 
hard to try to do it.
    The Chairman. Can you tell me whether, even in these areas 
where they have been without that power for now seven months, 
the schools have been taken care of? They have generators. Kids 
are in their schools, aren't they? Please give me that 
assurance.
    Mr. Sobrino Vega. Yes, ma'am. School started. The schedule, 
of course, changed.
    A lot of work was done by UPR, the Department of Education, 
to make sure they don't lose that semester, but kids are back 
in school.
    The Chairman. Okay.
    Just kind of jumping around here.
    Mr. Sobrino, you have talked about the sale of the assets 
from PREPA, but given the age, the condition of many of the 
electric power plants, who is really going to buy them? Who do 
we anticipate is going to look at this and say, okay, here is a 
deal?
    Mr. Sobrino Vega. That's a great question.
    What we're going to conduct is a market sounding process. 
What we see is a lot of the PREPA generation fleet, part of 
their value is their location, part of their value is the 
requirement to continue operating them as new generation assets 
are constructed. So we are open to not only having just an 
outright sale but having intermediate agreements also included 
in this transformation process.
    The Chairman. So if I am somebody who is looking at this as 
an opportunity, again, having seen some of it. I think Senator 
Cassidy mentioned the condition of some of what we had seen. It 
was not exactly enticing.
    I understand that there is an opportunity because of the 
location, but is this something that decisions on this would be 
delayed as potential purchasers look to see what really is 
going to be stood up?
    There is just so much that is at play right now. You have 
FEMA and the Corps who have been in place for these eight 
months now. You have a transition. You have just so much that 
is moving around and a great deal of uncertainty. Mr. Higgins, 
you mentioned that part of your responsibility here is to make 
sure that you have a grid that is resilient here. You are 
preparing for the next hurricane season. Assistant Secretary 
Walker has said that we are not in ``a normal state,'' and that 
is why we saw this most recent blackout. So we are not in a 
normal state yet.
    Hurricane season is, you said, a month away. The Corps is 
leaving. You have a transition that is going on that Mr. 
Higgins has said, you know, it may be, I think you said 
uncomfortable or a little painful in the process. I just have a 
hard time believing that anyone is going to view this as a real 
opportunity to come in and purchase these assets.
    Mr. Sobrino Vega. The process to concession or to sale of 
an asset, what we're working on right now is getting 
legislative authority in Puerto Rico through our legislature so 
that we can commence a market sounding and interface with 
possible investors.
    What is clear is that whatever happens there is going to 
continue to be a transmission distribution service in Puerto 
Rico. And the way that we have found in the past that services 
like those are de-politicized are managed adequately is if we 
contract the private operator or we provide some kind of long-
term concession. What we're trying is to find ways to actually 
avoid falling into traps of the past and have a stronger 
customer centric system.
    There are a lot of challenges, Senator. We are not shying 
away from them. We have asked for help when we need that help 
and we invite that help to continue coming to the island, but 
it is part of the reality of living on an island in the 
Caribbean that you have to juggle governing, you have to juggle 
what Mr. Higgins has to do in PREPA, what Jose has to do in the 
Energy Commission, what Mr. Masses has to do in the private 
sector. We all have to do, we have to continue our operations, 
but also face possible atmospheric events in the future. So 
that's what we're working on to make sure that what happened 
before never happens again.
    The Chairman. Well, I think we would all encourage that.
    Mr. Masses. Senator, if I may?
    The Chairman. I think it is important, your comment about 
trying to de-politicize to the extent possible. I think we 
recognize you have some pretty difficult history with the 
politicization of your power grid, and I think that that has 
been a real drag on your ability to move beyond it and the 
genesis or the root of many of the questions that have been 
presented.
    I want to ask you, and I will let you, Mr. Masses, jump in 
here, but as far as the coordination, the working together that 
you have just referenced, how well are the Governor, the board 
and PREPA coordinating with each other on the structure and on 
the operation? It is one thing to sit here in front of a 
Committee and share a table, but do you believe that all of the 
necessary entities that must be coordinating to allow for a 
better energy future for Puerto Rico, do you believe that that 
is happening? I will ask each of you and also from the private 
sector side as well.
    Mr. Sobrino Vega. Should I start?
    The Chairman. Yes, go ahead.
    Mr. Sobrino Vega. Part of what we did when we, two months 
after the hurricane to try to enable that coordination, we 
created that recovery office within the P3 authority. We were 
following best practices in Louisiana, in New York, in New 
Jersey, trying to centralize that coordination effort.
    The communication with FEMA, with U.S. Army Corps of 
Engineers, with other federal stakeholders has been improving 
substantially over the months.
    Right now, I think that the unitary command group, I mean, 
we can discuss, maybe, differences of what happened in the 
past, but the truth of the matter is that federal officials and 
Puerto Rican officials have been walking on the ground holding 
hands to get working together for months and they've done great 
work.
    With the Oversight Board and PREPA. PREPA management runs 
the day-to-day operation. We do have to conduct fiscal and 
budgetary planning with the Oversight Board. They're included 
in that process.
    And from the regulatory point of view, we have been working 
hard on improving relationships with the regulator to make sure 
that they are more involved in the process. There was confusion 
because of what are the authorities between PROMESA, between 
the energy regulator, between PREPA itself, now that it's in 
Title III. Those issues, some of those issues, have been 
litigated and resolved. Some of them, we're working together to 
figure them out.
    But we are--that working together is happening day-to-day 
and it is going to lead to more successful, a stronger and 
better Puerto Rico in the future.
    The Chairman. Mr. Higgins.
    Mr. Higgins. My job is not to figure out what the policy 
should be but to implement it and when the legislature and the 
Governor, working with the Oversight, decide that the right 
future for Puerto Rico's electric utility is go a certain way, 
my job is to get it as ready as possible to execute that plan.
    The Chairman. Do you feel you have that clear direction 
now?
    Mr. Higgins. Yes. I don't have the exact direction, but I 
certainly have a good general direction at this point. And 
that's what is being debated in the legislature, is how to look 
at that.
    The Chairman. And from the private side, what is the 
observation there?
    Mr. Masses. Well, first, one million, five hundred thousand 
meters is a huge market. The importance of the value, it's not 
the equipment in PREPA. The southeast, the market, it's a huge 
market.
    So as we speak, we are having the international energy 
event in San Juan with dozens of companies interested in 
competing for this market. So there is going to be many 
competitors and there's going to be a huge appetite to get to 
be part of this.
    Now, our energy committee has offered itself to present a 
bi-weekly progress report to this honorable commission in order 
to keep you informed and assist you in helping. We will 
present, every two weeks, a report of how Puerto Rico is 
progressing in this crisis.
    In terms of the relationship between the government and the 
agencies, no pain, no gain, right? I believe that they're going 
through some strong, some difficulty, but as Mr. Sobrino 
mentioned, they will be fine and things are going well.
    I hope that the conclusion will be a great, great for all 
of us in Puerto Rico.
    The Chairman. Mr. Roman Morales, would you like to jump in 
there?
    Mr. Roman Morales. Yes, thank you very much, Madam Chair.
    I'm actually encouraged with what I'm hearing today at the 
hearing. There is still work to be done to delineate 
responsibilities between all the different agencies. There are 
many agencies that have either, that there's an interaction 
between the decision-making and there's overlap between them as 
well.
    So we have issues. I included that as part of, as an 
attachment to my testimony, protocols that we established so 
that we could work with the Fiscal Oversight and Management 
Board so that we can mesh our responsibilities so that we don't 
step on each other's jurisdictions.
    And we have started conversations with Mr. Sobrino and the 
government. There is the policy starts, starting within the 
government, starting with the Governor and the commonwealth 
legislature. It delegates to different entities in this regard 
on the energy policies, the implementation of the policies, but 
it's a possibility that they are implemented relies on the 
energy commission and PREPA to carry out those policies or 
whatever future transformation takes place.
    But I'm encouraged with what I'm hearing. I hope that this 
conversation keeps happening, that we're able to delineate 
where we are all supposed to operate for the benefit of the 
people of Puerto Rico.
    The Chairman. Very good.
    I had one more question and this was prompted from your 
comments, Mr. Higgins, about this RUS national standard that 
you mentioned for construction going forward. Is that standard 
what is being utilized now as we are operating under these new 
provisions within the Stafford Act that we just authorized 
recently, or how does this RUS national standard fit in?
    Mr. Higgins. Senator, what we did in restoring the system 
so that people had power was to put it back the way it was 
which was designed to a lot of standards that had evolved over 
many years. They were standards, but they were not standards 
that were generally adopted throughout the United States, but 
they were professionally competent standards.
    What we've now said, based in part on the findings of 
difficulties that were encountered during the aftermath of 
Hurricane Maria in having material issues, different voltages, 
issues with linemen who came from the other states to know 
exactly what they were encountering.
    We have said, we're now going to reconstruct the system and 
all new construction would be to this new national standard 
which exists already, a national standard, new to us, called 
the Rural Utility Standard. And that will identify all the 
things, the practices, that need to be met as we reconstruct 
things in the system, not simply put the power back on, but as 
we rebuild the system to be more resilient, to be more able to 
withstand.
    The Chairman. I understand all that, but what you have just 
said is we are rebuilding twice. We rebuilt the first time to 
get things up and running, and now we are going to improve the 
system. It was my hope that with changes to the Stafford Act 
that we would do it once.
    I understand, logistically, that the immediate need after 
an emergency is to get power back to the people. I am going to 
ask you, Mr. Walker, with this in place going forward with 
these RUS standards, does this meet what you thought we needed 
to do with addressing the Stafford Act limitations?
    Mr. Walker. The Stafford, no, Senator.
    The components of the Stafford Act get into being able to, 
you know, redesign----
    The Chairman. Right.
    Mr. Walker. ----in very short time and make those decisions 
to install.
    In having spoken with Mr. Higgins about the RUS standards 
over the last several weeks, this is an establishment of a 
standard that will be incorporated for new projects as they go 
forward.
    The resiliency that needs to be built into the system comes 
from a number of different things. Standards is just simply one 
component on a going forward basis. But the design and how 
certain components are integrated, so where the generation is, 
what type of construction is used on certain poles that are 
going to be subjected to certain type of winds during a 
hurricane, the ability for the system to disconnect itself and 
reaggregate itself through things like reclosers. Things like 
that are not components that are going to be impacted by the 
RUS standards. The RUS standards simply will define things like 
standard pole size, how certain poles are guyed, certain 
transformers. I know that Mr. Higgins had, you know, one of the 
things that we struggled with when we were putting--going 
through the emergency restoration component was the disparity 
of the different types of voltages and how they didn't match up 
with responding utilities.
    So, what would be a typical voltage in the United States, 
in the mainland, so that when those crews move from the 
mainland down to Puerto Rico or USVI they can bring their own 
stock with them and replace it. In this instance, they could 
not because of some of the voltage standards in Puerto Rico.
    So, those are the things that when you look at resiliency 
on a much more holistic basis, there's a lot of components that 
go into it, and a lot of it is the design capabilities.
    Utilities, you know, typically always have a standard that 
is utilized by their company. So, it's not--this would be in 
step with moving toward resiliency. It's just, it's a big 
island. It's 3,500 square miles, and there's lots and lots of 
infrastructure. So it will take a period of time to transition 
through all of those components, but there are, and we're 
working very closely with PREPA. There are opportunities for 
resiliency through design and through microgrids in utilization 
of different technologies and resources to expand the 
capabilities of the system.
    The Chairman. Good.
    This may be for both Mr. Higgins and Mr. Alexander, in 
terms of the materials that we have sitting in the warehouses, 
whether they are in the Corps or whether they are going to be 
transferring over to you. Do these materials meet what you will 
need to match up with these RUS national standards?
    Mr. Higgins. Yes.
    As we change voltages and do some other things over time, 
we'll have to get new equipment to replace that, but the things 
that have been brought back in are adequate to allow us to 
operate until we make changes in the future.
    If a voltage is set at a certain level for a structure, you 
can't use just any other piece of equipment, you must use one 
that is adequate for that voltage.
    And so, many of the things that we'll have to do in the 
future will require different equipment to be installed, but I 
will endorse what Mr. Walker said. Resilience is about not just 
design, but also design philosophy, operating philosophy. Many 
things have to be done. That work is really just starting.
    The Chairman. Okay.
    So the stuff that you are going to be receiving is material 
that you will be able to use.
    Mr. Higgins. We will be able to use it. It will take years 
and years for the system to be completely rebuilt.
    The Chairman. Got it.
    I always hate it when I am asked the question, give 
yourself a grade on your performance. It is always much easier 
to be the teacher and give you the grade, but this is national 
teacher week, so I am going to ask you each to give yourself a 
grade on how you feel the rebuild, the response is going, seven 
months after with regards to the disaster in Puerto Rico. I am 
going to make it easier on you and suggest that it not be a 
letter grade, but let's go back to elementary school when you 
are, where you are given an O for Outstanding, an S for 
Satisfactory, or an N for Needs Improvement or an Incomplete. 
That is always a good one.
    Mr. Walker, we are going to start with you.
    Mr. Walker. O plus, Senator.
    The Chairman. There you go.
    [Laughter.]
    O plus.
    Mr. Alexander.
    Mr. Alexander. It's incomplete. Our goal was always 100 
percent.
    The Chairman. That is fair.
    Mr. Sobrino.
    Mr. Sobrino Vega. Ma'am, there's been a lot of tests. I 
think we've aced a couple. We've passed others and there's need 
for improvement in some of those as well. There's probably, at 
the end of the day, the overall test of rebuilding the island, 
that's still incomplete, but it is a process and there are a 
lot of tests in it.
    The Chairman. Good.
    Mr. Higgins.
    Mr. Higgins. You didn't say work in progress was another 
choice, did you?
    [Laughter.]
    The Chairman. Needs improvement, incomplete.
    Mr. Higgins. I think PREPA's response has gotten better and 
better as time has gone on. I'm fairly new, so I can't take 
credit for any of that. For myself, I'm at the needs 
improvement stage because we still have a lot to do.
    I think PREPA has learned a great deal about itself and 
about what its responsibilities are. I would say overall, 
especially fairly early, needs improvement and beginning to get 
almost to satisfactory, but it won't be satisfactory until 
every customer is back in service.
    The Chairman. Good.
    Mr. Roman Morales.
    Mr. Roman Morales. It needs improvement, definitely needs 
improvement.
    I feel we have wasted two years. The Commission was created 
in 2014. We did a lot to get PREPA up to a much better standard 
to what it is. Definitely the hurricanes have affected the 
performance of PREPA. We were in the process of establishing 
performance metrics for PREPA before the hurricane hit the 
island. And now I hear we're--see KPI is being thrown around 
which I'm happy to see, but I feel we have wasted too much 
time. And we're still are incomplete and therefore to restore 
power and there still needs a lot of improvement.
    The Chairman. Mr. Masses.
    Mr. Masses. Before Maria, a very poor job in having a good 
electrical grid. Yes, indeed, Mr. Roman is right. The early 
commissions contribute heavily in terms of higher standards in 
PREPA. After Maria there's a lot of improvement to be done in 
order to complete this job. Thank you.
    The Chairman. Well, thank you all.
    I think I would agree with what many of you have said that 
this is still a work in progress.
    I think for the people on the ground, it is clearly a work 
in progress and we worry that the progress has not been fast 
enough. It is unnerving, I think, to think that we have the 
hurricane season that will once again be upon us and there is a 
vulnerability to the people in Puerto Rico, in the area. But 
today's hearing, our focus today, is on Puerto Rico and how we 
are doing in our response.
    I appreciate the fact that we all recognize that we have 
more to do in our various capacities and appreciate the work 
that has gone into the response. It has been very complicated. 
It was extraordinarily devastating to be hit by two hurricanes 
and to be laid flat in many areas by the winds that came 
through. Fortunately, we don't see the level of devastation in 
these very populated areas too very often. And so, getting the 
level of coordination that needed to come together in response 
was an imperative.
    Mr. Walker, I think having been on the ground, as you all 
were working with, not only a great number of agencies but a 
great number of volunteers that really did try to gear up, team 
up, just as quickly as possible to provide for that response 
and that relief. It is recognized that it was a considerable 
challenge. And you were doing so in an area where you had a 
system that was troubled to begin with. And so, there are a 
whole host of issues that have just led to us having this 
second hearing now within a six-month period following the 
disaster.
    Know that we will continue as a Committee to be vigilant in 
following this to ensure that the resources that are necessary, 
that the coordination that is required, will continue.
    I do hope that we don't take the eye off of the ball until 
this is done. My fear has always, is always, after every 
disaster that the news is there for a cycle. The relief efforts 
are there for a limited period of time and then we move off to 
the next disaster, to the next issue and the people who remain 
vulnerable feel forgotten. Well, we are not going to forget the 
people of Puerto Rico. We are going to stay on this, and we 
need your leadership to do just that.
    Thank you for the time that you have given. I know that 
other colleagues will be submitting additional questions for 
the record. Hopefully you can be responsive to us as we 
continue to help in this important area.
    Thanks for what you do. With that, we stand adjourned.
    Thank you for your time today.
    [Whereupon, at 12:30 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                [all]

</pre></body></html>
